APPENDIX A

Date Filed: 02/19/2020

Case: 19-11478

Page: 1 of 12
[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-11478
Non-Argument Calendar

D.C. Docket Nos. 4:17-cv-00117-LGW-CLR,
4:14-cv-00278-LGW-GRS

WILLIAM A. ANDERSON,
Plaintiff-Appellant,
versus
AMERICAN GENERAL LIFE INSURANCE COMPANY,
d.b.a. AIG Life and Retirement,
Defendant-Appellee.

Appeal from the United States District Court
for the Southern District of Georgia
(February 19, 2020)
Before ED CARNES, Chief Judge, WILSON, and MARCUS, Circuit Judges.
PER CURIAM:

APPENDIX A

Case: 19-11478
William Anderson, a
denial of his

Date Filed: 02/19/2020

Page: 2 of 12

plaintiff proceeding pro se, appeals the district court’s

motion to vacate his arbitration award on his claims of race

discrimination and retaliation under Title VII of the Civil Rights Act and of race
discrimination under 42 U.S.C. § 1981. We affirm.
I.
The American

General Life Insurance Company (AIG) hired Anderson as a

sales agent in 2003. In 2012 a“service manager” position opened up and four AIG
employees — including Anderson
Watson,

wanted it. One of those employees, Roy

was white while the other three were black. An AIG general manager

named Thomas Gallo was in charge of deciding who would get the promotion, and
he decided to set up a contest for it. Under the terms of that contest, the first
em

ployee to reach certain annual sales and renewal goals was supposed to win the

promotion. But that did not happen, One of the black candidates (not Anderson)
was the first to meet the contest criteria but was not promoted. Instead, Watson
was pro

moted when he met the goals several months later. And Watson had a lot

of help from Gallo in meeting the goals: Gallo appointed Watson to be the
temporary service manager __which gave Watson the chance to push through
extra business to himself—and Gallo used his own position to push through some
business to Watson as well.

2

Case: 19-11478
When Anderson
to Gallo’s

Date Filed: 02/19/2020

Page: 3 of 12

discovered that Watson was going to be promoted, he went

office to complain because he had met the contest criteria too . Gallo

said that it was too late for him to take back Watson’s promotion, but he offered to
recommend to upper management that Anderson be transferred to Watson’s old
position. And he would “make it worth [Anderson’s] while’ by letting him
combine his book of business with the one Watson serviced before his promotion.
He also said that he would temporarily appoint Anderson to Watson’s old position
while

they waited for upper management to approve the permanent transfer.
But at first,

instead of giving Anderson the temporary appointment, Gallo

gave it to a white employee, Rick Pickett. Gallo later explained to Anderson that
Pickett had put in extra work to compensate for Watson being appointed temporary
service manager, and appointing Pickett temporarily to Watson’s old job was a
way to pay him back. Gallo also said that Anderson ’ss decision to take a two-week
vacation during the temporary appointment period influenced his decision . After
some back-and-forth between Gallo and Anderson, Gallo agreed to give Anderson
the temporary appointment after .Anderson’s vacation was over, Gallo kept his
promise, and Anderson worked on a temporary basis in Watson’s old job from
October to December 2012. But in mid-December a higher-up AIG employee who
did not know Anderson’s race denied his request for a permanent transfer based on
objective internal policies.
3

Case: 19-11478

Date Filed: 02/19/2020

Page: 4 of 12

In 2014 Anderson, then represented by counsel , sued AIG in federal district
inationunder Title VIIand§ 1981. The district court
court for employment discrimina
claims on the ground that they were subject to mandatory
dismissed Anderson s
arbitration under the terms of his contract with AIG, and we afBrmed. See
Anderson v

. a rm r.en l ife Ins.. 688 F. App’x 667,668-70 (11th Cir. 2017). In

plaint in the district court and moved to stay the case
July 2017 he refiled his com
pending arbitration. The court granted his motion.
The same day Anderson refried his case, he fried a demand for arbitration
with the American Arbtotion Association. In that demand, he claimed in relevant
(1) that AIG violated Title VII by failing to promote him because of his race;
part
(2) that AIG violated § 1981 by refusing to

afford him the same right to make and

enforce his employment contract as was enjoyed by a similarly situated white man;
(3) that AIG retaliated against him

in violation of Title VII when he engaged in

protected activity; and (4) that his arbitration agr

eement with AIG was void and

unenforceable.
The first arbitrator assigned to Anderson’s case was Beverly Baker. She
presided over an
Anderson

initial case management phone conversation during which

contended that she lacked jurisdiction over the case because the

arbitration agreement was
that time, but she

unenforceable. Baker refused to hear any evidence at

did order the parties to brief the jurisdictional question. After

Case: 19-11478
reviewing the briefs she issue

Date Filed: 02/19/2020

Page: 5 of 12

d an order finding that the arbitration agreement was

valid and that she did have jurisdiction

. Anderson prepared a memorandum

versation that he found troubling
detailing the things about the phone con
including Baker’s refusal to hear evidence —

and Baker recused herself from the

case a short time later.
After Baker
appointed,

’s recusal a different arbitrator, Patricia Renovitch, was

Anderson urged Renovitch to revisit the jurisdictional issue, but she

refused to do so and stood by Baker’s

order. She then held a multi-day trial on the

merits of Anderson’s remaining claims,

She found the facts as we have described

nd ruled that Gallo’s promotion of Watson violated Title VII
them in this opinion a
and § 1981 because

it discriminated against all of the black applicants (including

Anderson) in favor of the one white applicant. But she found that Gallo s
temporary appointment of Pickett to Watson’s old position did not violate those
discriminatory reasons for his decision.
laws because Gallo had legitimate, nonAnd she
failed to

found that Anderson was not entitled to punitive damages because he
prove that upper management knew about the discriminatory nature of

Gallo’s contest.

As a result, she issued an interim award granting Anderson

fees. Anderson requested that
compensatory damages and reasonable attorney’s
Renovitch rec

onsider her denial of punitive damages, but she refused to do so and

5

Case: 19-11478

Date Filed: 02/19/2020

entered a final award granting Anderson the same

Page: 6 of 12

compensatory relief as the

interim award.
d Anderson began representing
At that point his counsel withdrew an
district court a motion to vacate the arbitration award,
himself. He filed in the
bitrator refused to hear material evidence, wrongly dented
contending that the ar
Anderson’s motions for spoliation sanctions, raised an affmnative defense on
AIG’s behalf, and based her award on

a mistake of fact. The district court denied

the motion and Anderson brings this appeal.
II.
When reviewing a district court’s denial of a motion to vacate an arbitration
award, we review the district court s
conclusions de novo

factual findings for clear error and its legal

Frayier v Cjtifinancial Coro.. LLC, 604 F.3d 1313, 1321

is an alternative to litigation, judicial review
(11th Cir. 2010). “Because arbitration is
is among the narrowest known to the law.” AIG Baker
of arbitration decisions is
Sterling Heights, LLC v. Am.

Mufti-Cinema. Inc., 508F.3d 995, 1001 (11th Cir.

2007) (quotation marks omitted). By statute we can only vacate an arbitration
award in four circumstances.
procured by corruption, fraud, or undue
(1) where the award was
means;
(2) where there was evident partiality or corruption in the arbitrators, or
either of them;
6

Case: 19-11478

Date Filed: 02/19/2020

Page: 7 of 12

(3) where the arbitrators were guilty of misconduet in refusing.to. _•
misbehavior
(4) where the arbitrators exceeded their powers ....
9 U.S.C. § 10(a): see Frazier, 604 F.3d at 1324.
III.
Anderson’s

first contention on appeal is that arbitrator Baker wrongly

refused to hear during the initial case management discussion evidence relating to
his c

ontention that the arbitration agreement was unenforceable and, as a result, the

arbitrator lacked jurisdiction. But an arbitrator “need not consider all the evidence
the parties seek to introduce” and may “reject evidence that is cumulative or
urelevant.

- cuv Prudential Sec.. Inc.. 141 F.3d 1007,1017 (11th Cir. 1998).

The evidence Anderson wanted to introduce concerned whether AIG’s upper
management knew about the rigged promotion contest or procedure and whether
AIG breached a particular term of the arbitration agreement: the so-called “opendoor policy,” an op

tional and informal dispute resolution procedure. None of that

evidence was at all relevant to the jurisdictional question the arbitrator was
considering.
Under the

Federal Arbitration Act, “arbitration agreements are valid,

irrevocable, and enforceable, save upon such grounds as exist at law or in equity
for the revocation of the contract.” Caley v. Gulfstream Aerospace Corp., 428

7

Case: 19-11478

F.3d 1359

Date Filed: 02/19/2020

Page: 8 of 12

, 1367 (llth cir. 2005) (quotation marks omitted)

Baker with three alleged grounds for

. Anderson presented

invalidating his arbitration agreement with

drat AIG had breached the agreement by failing to honor the open -door
AIG:
t lacked consideration, and that the agreement by its terms
policy, that the agreemen
. Whether AIG’s upper management knew about the rigged
was not mandatory
do with any of those three grounds. And, as
promotion procedure had nothing to
s, see Anderson, 688 F. App’x at 669
we held the last time this case was before u
70, if AIG did breach the open-door policy, that breach did not render the
arbitration agreement unenforceable.

So the arbitrator did not refuse to hear

relevant evidence.
Next, Anderson contends

that arbitrator Renovitch engaged in misbehavior

when she denied his request for spoliation sanctions.1 Before trial Anderson asked
AIG to produce certain “new business reports,” but AIG had failed to preserve
those reports

. Anderson requested a spoliation presumption — that is, a

presumption that the allegedly spoliated
Watson manipulated the contest

evidence would have proved Gallo and

The arbitrator did not address that request.

To prove misbehavior Anderson must show , as a

preliminary matter, that his

rights have been prejudiced. See9U.S.C. § 10(a)(3) (stating that an award can be

^^Anderso..also assert*MM
request for spoliation sanctions showed bias or prejudice, see 9 • • -9
reply brief he expressly abandoned that position.

Case: 19-11478

vacated

Date Filed: 02/19/2020

Page: 9 of 12

“where the arbitrators were guilty of misconduct in ... any other

misbehavior by which the rights of any party have been prejudiced”); Scotty,
Prudential Sec.. Inc., 141 F.3d 1007, 1017 (11th Cir. 1998) (stating that under
§ 10(a)(3) a party challenging an arbitration award based on the arbitrator s
“misbehavior’; must show prejudice), overruled in part on other grounds, Hall
T.T.r.v. Mattel. Inc,, 552 U.S. 576, 584-89 (2008). Before the
arbitrator

issued her initial award, Anderson argued the spoliated evidence would

have shown that Gallo and Watson manipulated the promotion contest . But the
arbitrator found in Anderson’s favor on that question. That means her failure to
address Anderson’s request for spoliation sanctions did not prejudice Anderson.
After arbitrator Renovitch entered her interim award, Anderson changed his
tune

about what the allegedly spoliated evidence would show. He submitted a

request for reconsideration of the denial of punitive damages, arguing that the
missing evidence

would have shown that AIG’s upper management knew about the

rigged contest. The arbitrator did not consider Anderson’s new argument on
spoliation, but her failure to do so was not “misbehavior” in any sense. In federal
motion courts enforce a number of rules and principles that prevent parties from
raising arguments too late. See, e.g.. In re Egidi, 571 F.3d 1156, 1163 (llthCtr.
2009) (“Arguments not properly presented in a party’s initial brief or raised for the
first time in the reply brief are deemed waived.”); Wilchombe v. TeeVee Toons,

Case: 19-11478

Date Filed: 02/19/2020

Page: 10 of 12

Inc, 555 F.3d 949,957 (11th Cir. 2009) (“A motion for reconsideration cannot be
used to ... raise argument or present evidence that could have been raised prior to
the entry of judgment.”)-

Those same principles may be properly applied in an

arbitration proceeding where there are fewer procedural protections than in federal
ig v.
Stanley & Co.. Inc,, 494 F.3d 1328, 1333 (11th
court. See Rgsensweigjv.-------------Cir. 2007).

The refusal to consider Anderson’s belated argument was not

misbehavior.
t contends that arbitrator Renovitch exceeded her powers,
Anderson nex
showed bias, and engaged in misconduct by asserting an affirmative defense to
punitive damages on

behalf of AIG when AIG itself had failed to do so. The

factual premise of his contention is belied by the record . The arbitrator never
asserted an affirmative defense to punitive damages on behalf of AIG . The denial
of punitive damages was expressly based on Anderson ’s failure to prove that he
was entitled to them, not on any affirmative defense.
Anderson further contends that arbitrator Renovitch “violated her
contractual agreement” by applying the wrong burden of persuasion . AIG had
argue

d that once Anderson made out a prima facie case AIG faced only an

“exceedingly light” burden of producing anonThe

discriminatory reason for its action.

arbitrator rejected that AIG argument on the first day of trial. That rejection,

according to Anderson, amounted to an agreement that AIG had to meet more than
10

Case: 19-11478

an

Date Filed: 02/19/2020

Page: 11 of 12

“exceedingly light” burden. He complains that the arbitrator violated the

agreement by permitting AIG to prove a non

-discriminatory reason by less than a

preponderance of the evidence and making fact findings accordingly . Those
findings, Anderson says, caused him to lose on his retaliation claim and on his
claim that AIG discriminated against him by appointing Pickett to the temporaiy
position that Anderson had been promised.
Contrary to Anderson’s theory, the rulings of factfinders and decision
makers do not amount to contractual agreements. Not only that, but his theory
finds no place in the statutory grounds for vacating an arbitration award. See
9 U.S.C. § 10(a). A court cannot vacate an arbitration award on grounds not set
out in § 10. See Frazier; 604 F.3d at 1324
Finally, Anderson challenges one of Renovitch’s fact findings: that Pickett
put in extra work after Watson was transferred to the temporary service manager
position. Anderson has waived that argument because he did not raise it in the
district court. Cf. Bryant v. Jone_s, 575 F.3d 1281,1308 (11th Cir. 2009) (“It is
well established in this circuit that, absent extraordinary circumstances, legal
theories and arguments not raised squarely before the district court cannot be
broached for the first time on appeal.”). And even if Anderson had not waived die
argument, an “arbitrator’s improvident, even silly, factfinding does not provide a
basis for a reviewing court to refuse to enforce the award.” Cat Charter, LLCw
11

Case: 19-11478

Sr.Vmrtenberger, 646 F.3d 836

Date Filed: 02/19/2020

Page: 12 of 12

, 840 n.4 (11thCir. 2011) (quotingMaiorLeague

Tfn ,rhn11 P1qYw Ass’n v- Garve-^ 532 U'S‘ 5°4, 5°9 ^2001^‘

affirmed.

12

APPENDIX B

Case 4:17-cv-0011 /-LGW-CLR

Document 29

Filed 03/19/19 Page 1 of 19

3n tlje mm states ©strict Court
tor tljc ^out&ern ©totrtrt of Georgia
g>atoannal) ©ibioton
WILLIAM A. ANDERSON,
Plaintiff,
NO. 4:17-CV-117
v.
- LIFE INSURANCE
AMERICAN GENERAL
life
and retirement,
d/b/a AIG
Defendant.
ORDER
dismissed this case finding that it must
The Court previously
Plaintiff timely refiled the
4-3.
Diet.
No.
be arbitrated.
Subsequently, the Court stayed and
Diet. No. 1.
complaint.
resolution of the
administratively closed this case pending
arbitration award has been
arbitration. Diet. No. 10. The final
Diet. No. 16-1. Nevertheless,
filed
with
the
Court.
entered and
filed a Motion to Vacate Arbitration
Plaintiff, acting pro se,
The
presently before the Court,
22,
which
is
dkt.
no.
Award,
For the
and is ripe for review.
Motion has been fully briefed
reasons that follow, Plaintiff's Motion is DENIED.
background
After this Court ruled and the

Eleventh Circuit affirmed that

on July 5, 2017, Plaintiff
Plaintiff's claims must be arbitrated,
arbitration with the American Arbitration

filed a demand for

A0 72A
(Rev. 8/82)

APPENDIX B

Case 4:17-cv-00117-LGW-CLR Document 29

Association ("AAA").

Dkt. No.

Filed 03/19/19 Page 2 of 19

25-1.

In

the demand, Plaintiff

(1) that his former employer,
relevant
claims:
made the following
failed to
General Life Insurance ("AIG")
American
Defendant
African-American in
race as an
of
Plaintiff's
promote him because
Civil Rights Act of 1964; (2) that
of
Title
VII
of
the
violation
afford Plaintiff the
§ 1981 by refusing to
violated
42
U.S.C
AIG
contract as was
make and enforce his employment
right
to
same
situated white male; (3) that AIG illegally
enjoyed by a similarly
of Title VII when
retaliated against Plaintiff in violation
that the arbitration
Plaintiff engaged in protected activity; (4)
was
to
be
arbitrated
claims
these
requiring
agreement
breached by AIG; (5) that the
unenforceable because it was
the
(6)
that
lacked consideration;
arbitration agreement
was
thus
and
mandatory
not
was
agreement
arbitration
entitled to punitive
unenforceable; (7) and that Plaintiff was
damages.
assigned to the case,
An arbitrator, Beverly P- Baker, was
Dkt. No. 22-3.
and she entered an Initial Case Management Order.
"initial telephone management
That document states that an
2017, in which the
conference call" was held on September 29,
the arbitrator, and a case manager for
parties, their attorneys,
During that telephone call,
Id. at 2.
the AAA participated.
should be voided
Plaintiff argued that the arbitration agreement
Id.
As a result of this
(6) listed above.
for reasons (4)
2
AOT2A
(Rev. 8/82)

Case

4:17-cv-00117-LGW-CLR Document 29

Filed 03/19/19 Page 3 of 19

requested briefings on

these issues, and

argument, the arbitrator
Initial Case Management
issues
in
her
she made her ruling on these
rejected these three
that Order, the arbitrator
Id.
In
Order.
Id. As a result,
for doing so.
claims and explained her bases
jurisdiction over
she had
that
concluded
arbitrator
the
Id.
Plaintiff's remaining claims.
management phone call, Plaintiff created
After the initial
discussions that he
memorandum recapping some of the
and signed a
Relevant to this Order, Plaintiff
found troubling. Dkt. No. 22-2.
the three
the arbitrator refused to hear evidence on
noted that
Thus, Plaintiff was, according
claims that were raised. Id. at 2.
present evidence on the three
to the memorandum, not permitted to
arbitrator rejected. Id.
jurisdictional claims that the
notified that Arbitrator
On March 28, 2018, the parties were
Dkt. No. 25-4. At some point
recused
herself
from
the
case.
Baker
appointed to the case , Patricia
thereafter, a new arbitrator was
Plaintiff resubmitted to Arbitrator
A. Renovitch. Dkt. No. 22-5.
arbitrator lacked
Renovitch his three claims arguing that the
refused to revisit those issues and
but
Renovitch
j urisdiction,
of Arbitrator Baker as memorialized in
stood by the conclusions
The parties were
Id. at 2.
the Initial Case Management Order.
Id.
notified of Renovitch's decision on May 11, 2018.
a multi-day trial was held on
On early September 2018,
Plaintiff's remaining claims.

Dkt. Nos. 22-6, 22-7, 22-8.
3

A0 72A
(Rev. 8/82)

After

Case

4:17-cv-00U7-LGW-CLR Document 29

Filed 03/19/19 Page 4 of 19

briefs setting
submitted closing argument
the trial, the parties
22-15, 22-18. On December 5,
Diet.
Nos.
forth their contentions.
twenty-seven page Interim Award detailing
2018, Renovitch issued a
ultimate award.
conclusions of law, and the
her findings of fact
relevant to this Order are
factual findings
The
22-11Dkt. No.
Id.
hired by AIG to be a sales agent.
2003
Plaintiff
was
that in
still a sales agent and was
in
early
2012,
Plaintiff
was
at 5.
of his office, Thomas Gallo, that a
told by the general manager
and that
would soon become vacant
position
service .manager
it-at the time, Plaintiff
and compete for
Plaintiff should stay
Id. at 6. When the position became
considering
leaving
AIG.
was
for the service manager
Gallo created a promotion contest
vacant
of the applicants were black, and one
("SM") position. Id. Three
was
Watson , the white applicant,
Id.
Roy
Watson,
was white,
the
of the contest and was given
deemed
the
winner
eventually
Arbitrator Renovitch agreed with
at
10-11Id.
position.
contest discriminated against the
Plaintiff that the promotion
at 21.
the white applicant.
black applicants, in favor of
two other substantives claims
But Renovitch rejected Plaintiff's
Id. at 22-27.
and his punitive damages claim.
entered, Plaintiff filed a Request
After the interim award was
forth many grounds in which he
for Reconsideration, setting
believed Arbitrator Renovitch erred.

4
A0 72A
(Rev. S/82)

Dkt. No. 22-9.

On January

Filed 03/19/19 Page 5 of 19
CaSe 4:17 -c v-00117 - LGW-C L R Document 29

22,

Plaintiff's arguments and entered a

2019, Renovitch rejected

Final Award.

Dkt. Not 22-19.

Plaintiff filed this
§ 10(a) alleging that
erred, were

motion to vacate the

award under 9 U.S.C.

Renovitch
Arbitrator Baker and Arbitrator

biased, and misbehaved in many ways

when adjudicating

Plaintiff's claims.
discussion
X. Refusal to Hear Evidence Claim
should be vacated under
Plaintiff first argues that the award
Arbitrator Baker refused to hear
§
10(a)(3)
because
9 U.S.C.
of Plaintiff's claims that sought to void
evidence regarding three
Baker rejected these claims and held
arbitration
agreement.
the
Dkt. No. 22-3 at 2.
was valid.
arbitration
agreement
that the
that Arbitrator Renovitch declined to
Plaintiff also claims
also refused to hear
refusal, and thus, Renovitch
revisit Baker's
around the contention
The claims centered
that same evidence.
specifically, they were:
that the arbitrator lacked jurisdiction,
door policy" that was part of
(1) that Defendant violated an "open
and making it
arbitration agreement, voiding the agreement
the
lacked
agreement
arbitration
the
(2)
that
unenforceable;
arbitration agreement was "not
consideration; and (3) that the
forth in the [Employee Dispute
mandatory and/or enforceable as set
The evidence Plaintiff
Resolution program], " dkt. no. 25-1 at 5.
was testimony from
wished to present but was not permitted to
5
A0 72A
(Rev. 8/82)

Filed 03/19/19 Page 6 of 19
CaSe 4:17-cv-00U7-LGW-CLR Document 29

witnesses about "upper
manipulations,
information

Dkt.

concerning

management['si
No.
what

22

knowledge

18.

at

senior

These

management

of the contest
witnesses
said

and

"had
did

[Plaintiff] wanted to
and
job
positions
regarding the contest
-door policy." I£Ll
address by utilizing the open
arbitration award must be vacated
Under 9 U.S.C. § 10(a) (3) an
in refusing
were guilty of misconduct
the
arbitrators
"[w]here
and material to the controversy."
evidence
pertinent
... to hear
latitude in conducting an
Nevertheless arbitrators "enjoy wide
constrained by formal rules
arbitration hearing," and they “are not
954 F.2d 679, 685 (11th
Bobbins v. Day.
of procedure or evidence."
nfher grounds, First 0ptions_of_Chica2Qr.
Cir. 1992), overruled on
"An arbitrator need not
938,
948
(1995).
Inc. v. Kaplan, 514 U.S.
introduce but may
the parties seek to
all
the
evidence
consider
§cot^_Vr
is cumulative or irrelevant."
evidence
that
reject
"In
, 141 F.3d 1007, 1017 (Hth Cir. 1998).
Inc.
p-rnHpntial Sec.,
arbitrator's award only
federal court may vacate an
addition, Ma]
and material evidence
refusal to hear pertinent
if the arbitrator's
arbitration
the parties to the
the
rights
of
prejudices
Stanley & Co., 494 F.3d 1328,
proceedings. i // Rn.gsnsweiq v- Morgan
Pondado Beach. La Concha&
1333 (Hth Cir. 2007) (quoting Hoteles
uistas T.ocal 901, 763 F.2d 34, 40
rnmrpntion Ctr- v . Union De Tronq-------. (1st Cir. 1985)).

6
A0 72A
(Rev. 8/82)

Filed 03/19/19 Page 7 of 19

Case 4:17-cv-0Q117-LGW-CLR Document 29

Here,

the

evidence that

Plaintiff characterizes it,
issue.

Plaintiff

wished

Plaintiff

wished to present,

as

the claims at
was not material to
about upper
to present evidence

contest manipulations, but
knowledge
of
the
management's alleged
bearing on
ruling, this knowledge has no
under Arbitrator Baker's
voided the arbitration
violation of the open-door policy
whether a
lacked consideration,
arbitration agreement
agreement, whether the
the first issuemandatory. Regarding
was
or whether the agreement
the
open-door policy invalidated
of
the
whether a breach
found that
agreement—Arbitrator Baker specifically
arbitration
alleged failure to
that [Defendant's]
"insistence
Plaintiff's
fatal to the validity of the
Policy
is
Door
honor its Open
The Open Door Policy is an
Agreement is also unavailing. • arbitrate is mandatory." Dkt. No. 22and
the
agreement
to
option
determined that she would
Arbitrator Renovitch
Further,
3 at 2.
The evidence
reconsider these issues.
and
thus
not reopen
have been material to whether the
Plaintiff wished to present may
issue of
but Baker deemed the
breached,
was
open-door policy
whether the
breached to be irrelevant to
was
whether the policy
found that the policy was
enforceable
because
she
agreement was
arbitrate was mandatory. Thus,
optional but that the agreement to
-door
breach of the optional, open
implicitly
found
that
a
she
validity of the mandatory, arbitration
policy does not affect the
Plaintiff wished to present
agreement. Accordingly, the evidence
7
A0 72A
(Rev. 8/82)

Case 4;17-cv-0QU /-LGW-CLR

has

not

been

shown

9 o.S.C. § 10(a)(3).

Filed 03/19/19 Page 8 of 19

Document 29

to

and

"pertinent

be

Looking at the

material,"

other two issues, the same

upper management was aware of
Whether
or
not
result is warranted.
whether the arbitration
had no bearing on
contest
manipulations
the
whether it was mandatory.1
lacked
consideration
or
agreement
motion with respect to the
For these reasons, Plaintiff's
due to be DENIED.
hear evidence claim is
refusals
to
arbitrators'
IX. Spoliation and Partiality Claim
award must be vacated under
claims
that
the
Plaintiff next
Renovitch showed partiality
§
10(a)(2)
and
(3)
because
9 u.S.C.
sanctions against
enforcing spoliation
and misconduct by not
for vacatur "where there was
10(a)(2) provides
Section
Defendant.
Further,
corruption in the arbitrators.
evident partiality or
standard is satisfied 'only when either
"the evident partiality
(2) the arbitrator knows of, but
actual conflict exists, or
(1) an
reasonable person
information which would lead a
fails to disclose
Mendel v. Morgan
conflict exists.
to believe that a potential
1001, 1003 (Hth Cir. 2016)
654
F.
App'x
Keegan & Co. , Inc * t
ADM Inv'r Servs » r
Purchase
Plan
&
Tr.—v
(quoting c-ianelli Money
Here, Plaintiff
1998)).
146
F.
3d
1309,
1312
(Hth
Cir.
Inc.
/ if

i Notably, Plaintiff does n£e a^atfon trial in support of
presenting this evidence at the a b
argUes that he was
his discrimination claims.
^er,JyooIJderation of his
clfiS goTng ST™ «Udity of the arbitration agreement.
8
A0 72A
(Rev. 8/82)

Case 4:17-cv-00117-LGW-CLR Document 29

Filed 03/19/19 Page 9 Oi 19

conflict existed or
that an actual
contends
nor
proves
neither
Thus,
reasonably believed one existed.
could
have
that a person
§ 10(a)(2) does not apply.
in relevant part that an
Turning to § 10(a)(3) it provides
vacated "where the arbitrators were guilty
arbitration award may be
rights of any party
misbehavior by which the
of any other
summary judgment
In response to AIG's
been
prejudiced."
have
brief after the
in his closing
arbitration,
motion during
for reconsideration of the
arbitration trial, and in his request
finding of and remedy for
interim award, Plaintiff moved for a
three requests, Plaintiff argued
In each of these
spoliation.
business pending reports even
that Defendant failed to retain new
As a remedy,
notice of pending litigation.
though Defendant was on
a spoliation
was "entitled to
Plaintiff requested that he
would conclusively demonstrate that
that
the
reports
presumption
the NFYP sales to ensure
successfully manipulated
Gallo and Watson
of the Black employees." Dkt.
to
the
detriment
Watson's success
records may have conclusively
While
these
No. 22-14 at 20.
show that he was
demonstrated manipulation, Plaintiff cannot
prejudiced

by

a

lack

of

a

spoliation

finding

or

spoliation

arbitrator found in favor of Plaintiff on
presumption because the
Renovitch found that "[t]he overwhelming
Arbitrator
this issue.
contest was a pretext to
record evidence shows the SM promotion
promote the white applicant."

Dkt. No. 22-11 at 19.
9

A0 72A
(Rev. 8/82)

Part of that

Filed 03/19/19 Page 10 of 19

Case 4:17-CV-00117-LGW-CLR Document 29

'pushed through' new business
"Gallo
evidence was the fact that
In total, this
at 21.
the SM contest."
for Watson during
altered, and
reveal Gallo created,
record
facts
"and other
the white applicant."
criteria to favor
implemented SM promotion
reached the conclusion that
the
arbitrator
Thus, because
Id.
a spoliation presumption,
aid of
with
the
Plaintiff sought
Plaintiff

cannot show prejudice, or even partiality.
finding of
extent Plaintiff argues that a
determination
impacted the punitive damages

Furthermore, to the
I
II

spoliation would have
by Renovitch,

this claim fails.

Renovitch found the following

■regarding punitive damages:
the
record,
entire
the
of
consideration
and substantial evidence
preponderance of/upper^management (Benton, Parman
does not prove AIG s uPPe^
*
supported
Gallo's
and
Luckett)
knew
a
the black applicants,
discriminatory trea me”uri
the Sm promotion contest,
including [Plaintiff1^ reckless indifference to
t-7U ’1 e Gallo may have ac e
Title VII rights during
intiff's3 Section 1981 and Title vi
«d ^ nQt
the pretextual SM P^m^°nA^rdingly, punitive damages
show upper management did. According y, y
are not awarded.
Plaintiff argued in the closing brief at
Dkt. No. 22-11 at 26.
the evidence "would conclusively
the arbitration trial that
successfully manipulated the
demonstrate that Gallo and Watson
detriment of the Black
NFYP sale to ensure Watson's success to the
22-14 at 20
22-15 at 35; see also Dkt. No.
Dkt.
No.
employees."
Defendant's summary judgment in
in
opposition
to
(arguing
arbitration that "the reports would
10
A0 72A
(Rev. 8/82)

conclusively demonstrate that

Case 4:17-cv-

00117-LGW-CLR Document 29

Gallo and Watson su
Watsons'

success

Filed 03/19/19 Page 11 of 19

ccessfully manipulated
to

Comparing plaintiff's

the

detriment

of

the NFYP sales to ensure
the

Black

employees").

evidence would
characterization of what the

have shown to Renovitch s

findings on punitive damages , it is clear

that the former would not have

impacted the latter.

Plaintiff

Defendant's summary judgment
in
his
opposition
to
stated both
arbitration trial that
brief after the
and
in
his
closing
motion
Gallo and Watson manipulated
showed
that
the evidence would have
however, does not
punitive damages finding,
The
the contest.
i.e.,
found that upper management,
instead,
this
but
dispute
of the contest
were not aware
and
Luckett,
Benton, Parman,
26 {"[T]he preponderance of
manipulation. See Dkt. No. 22-11 at
evidence does not prove AIG's upper
and
substantial
the competent
Luckett) knew about or supported
management (Benton, Parman and
black applicants,
treatment of the
discriminatory
Gallo's
contest.")•
during the SM promotion
[Plaintiff],
including
characterization of the spoliated evidence, then, is
Plaintiff's
award and would not have
consistent with the punitive damages
impacted it.
Plaintiff's spoliation request

contained in his request for

reconsideration of the interim award, however

, recharacterizes the

In the request for
evidence from his prior spoliation requests.
the interim a„ard, Plaintiff stated that the
reconsideration of
whether or not
allegedly spoliated evidence "would have proven
11
A0 72A
(Rev. 8/82)

Case 4:17-cv-

upper

00117-LGW-CLR Document 29

management,

specifically

manipulated not only the
competitors' numbers -"

the

issue

Dkt. No.

case,

the black

Nevertheless, in
the Interim Award

[Plaintiff's

in

this

but also

"decline[d] to modify

raised

in

Benton

white competitor,

reconsideration] was fully
Interim Award."

Curtis

Dkt. No. 22-9 at 6-7.

the final award Renovitch
because

Filed 03/19/19 Page 12 of 19

request

for

considered and properly resolved in the
22-19 at 2.

Renovitch's refusal to

of what the allegedly spoliated
new
argument
address Plaintiff's
Rather,
misbehavior.
does
not
show
evidence would have shown
when
not consider this new argument
Renovitch had the power to
it prior to the
opportunity to make
Plaintiff was given every
Plaintiff's recasting of the argument at
Further
interim award.
arbitration proceedings and after the
in
the
that late stage
interim award is concerning.

cannot show prejudice, and
claim
fails
because
he
Plaintiff's
show misbehavior. At most, Plaintiff
fundamentally,
he
cannot
more
his
never explicitly ruled on
the
arbitrator
can show that
is not evidence of
This, by itself,
spoliation requests,
that the arbitrator ruled in
misbehavior—especially considering
allegedly spoliated
claim that the
Plaintiff's favor on the
the entering of
characterized by Plaintiff prior to
evidence (as
Renovitch's refusal to
award)
would
have
proven.
the interim
new argument, which was made for the
address squarely Plaintiff s
evidence of misbehavior.
first time after the interim award, is not
12

A0 72A
(Rev. 8/82)

Filed 03/19/19 Page 13 of 19
Case 4:17-cv-00117-LGW-CLR Document 29

For

reasons,

these

Plaintiff's

motion

with

respect

to

Plaintiff's spoliation requests is
Renovitch's failure to rule on
due to be DENIED.
that Arbitrator
III. Contention

Renovitch Asserted.a Defense on

Defendant's Behalf
Plaintiff
partiality,

next

exceeded

Arbitrator

argues

that

her

powers,

and

Renovitch

committed

a

showed
manifest

allegedly implemented a defense on
the
law
when
she
disregard for
In his motion to
did not request.
Defendant
that
it
behalf of
that "Arbitrator Renovitch asserted a
vacate, Plaintiff argues
" which "allowed the Defendant
Defendnat
never
pled,
defense [that]
clear overstepping of
to avoid punitive damages and was a
violation of her
authority and [a]
Renovitch's
Arbitrator
ruling by [a] preponderance of [the]
agreement for neutrality in
See also id. at 8 ("Arbitrator
22
at
6.
Dkt.
No.
evidence."
and
exceeded her authority, displayed partiality
Renovitch also
she implemented a defense on
disregarded
the
law
when
manifestly
did not request, in order to
Defendant
that
they
behalf of the
avoid awarding punitive damages.").
of the narrow review this
Ignoring the procedural posture
its merits
Plaintiff's argument fails on
must
undertake,
Court
ruling on the punitive
because the reason for the arbitrator's
based on any defense. Rather, the arbitrator
damages claim was not
of the competent and substantial
found that "the preponderance
13

A0 72A
(Rev. 8/82)

Case 4:17-cv-00117-LGW-CLR Document 29

Filed 03/19/19 Page 14 of 19

management (Benton , Parman and
AIG's
upper
evidence does not prove
treatment
Gallo's discriminatory
supported
Luckett) knew about or
during the SM
including [Plaintiff3 >
of the black applicants
have acted with reckless
While
Gallo
may
promotion contest.
Section 1981 and Title VII rights
[Plaintiff's]
indifference to
record does not
pretextual SM promotion contest, the
during the
The arbitrator
Dkt. No. 22-11 at 26.
management
did.
show upper
Plaintiff
by recognizing the burden
this
conclusion
prefaced
[Plaintiff] acknowledges
awarded punitive damages.
faced: "To he
that the employer acted with
he must present 'substantial evidence
federally protected I
reckless indifference to his
actual malice or
Kenworth of Dothan, Inc., 277 F. 3d
'
citing
to
Miller_v
rights,
Dental Ass'n,
(citing Kolstad Vi Am.
1269,1280 (Hth Cir. 2002)
Ct. 2118 2125-26, 144 L.Ed.2d 494
536-37,
119
S.
526,
527 U.S.
The arbitrator, then, did
(emphasis
added)
.
J9^
(1999))
simply found that Plaintiff could
a
defense
but
not manufacture
Furthermore,
of proving punitive damages.
satisfy
his
burden
not
Plaintiff could not
Defendant argued in its post —trial brief that
of his claims. Thus, the arbitrator
his
burden
of
proof
on
any
meet
for Plaintiff, but found, in line
did not manufacture a defense
with Defendant's arguments,
burden of proof for his

that Plaintiff could not meet his

punitive damages claim.

factual basis of Plaintiff s

argument is squarely contradicted by

the record.
14
A0 72A
(Rev. 8/82)

Accordingly, the

Case 4-.17-CV-00117-LGW-CLR Document 29

Filed 03/19/19 Page lb of 19

motion with respect to his
Plaintiff's
For these reasons,
manufactured a defense for
arbitrator
improperly
argument that the
Defendant is due to be DENIED.
IV.

that Arbitrator Renovitch

Contention

Preponderance of the Evidence
Plaintiff's

next argument states

agreed to rule by a preponderance
In the

her position.

produced,
affirmative

In

position

burden with the
reason

for

of the evidence but then changed
his motion to vacate,

to

that

Arbitrator's

the

Defendant

had

an

ability to implement a single

their

closing arguments

his position: "AIG in its

defiance

action,

a

that the arbitrator first

"Conclusion" section of

Plaintiff elaborates on

did not Rule by

while

stating

agreement,

exceedingly

an
light

nondiscriminatory

[Plaintiff]

needed

a

Arbitrator Renovitch
2-3) .
'
burden
(Exhibit
18,
p*
'substantial
rule by [a] preponderance of
contractual agreement to
violated her
exceedingly light assertion to
and
adopted
AIG's
[the] evidence
No. 22 at 23. Plaintiff goes
Dkt.
the detriment of [Plaintiff]•
minded Judge,
fair and neutral
"
[f]or
a
that
on to argue
citizen, the final decisions by
Arbitrator, Jury, or average
the second and third claim [sic]
Renovitch
concerning
Arbitrator
reach based on the concept of [a]
would have been impossible to
Id.
preponderanc e of [the] evidence."
Plaintiff's position that Renovitch
record
contradicts
The
of the
determinations based on a preponderance
did not make her
15

A0 72A
(Rev. 8/82)

Case 4:17-cv-00117-LGW-CLR Document 29

evidence standard.

See, e.g^> Dkt-

Filed 03/19/19 Page 16 of 19

No. 22-11 at

3 ("The following

the preponderance of the reliable
based
on
findings of fact are
September 5-7,
arbitration hearing on
evidence presented at the
of the preponderance of the
20 ("Consideration
2018."); idi at
record shows Gallo's promotion process
reliable evidence in this
for the SM
of the only white applicant
recommendation
and ultimate
s approval, discriminated against
management'
position, with upper
Accordingly,
[Plaintiff3.
including
applicants
the black
racially
SM promotion contest was
[Plaintiff]
proved the
Section 1981 and Title VII
violation
of
his
discriminatory in
reliable record
21 ("The preponderance of the
rights."); id•_ at
to appoint Pickett
legitimate business reason
facts shows AIG had a
October 8,
#24 from August 13
collect
on
agency
to temporarily
was
rationale
this
prove
not
did
[Plaintiff]
2012.
23 ("The preponderance of the reliable
discriminatory.");
at
AIG delayed this process in
not
establish
record evidence does
Section 1981 or Title VII rights,
of
[Plaintiff's]
violation
did not prove claim #3."); id^ at 26
Accordingly, [Plaintiff]
record, the preponderance of
consideration
of
the
entire
("Upon
substantial evidence does not prove AIG's upper
the competent and
Luckett) knew about or supported
management (Benton, Parman and
black applicants,
discriminatory treatment of the
contest.")In
during the SM promotion
with Arbitrator
asking the Court to disagree
essence, Plaintiff is
16

A0 72A
(Rev. 8/82)

Case 4:17-cv-0QU7-LGW-CLR

Renovitch's

findings

Document 29

and

Filed 03/19/19 Page 17 of 19

conclusions

and

to

issue

contrary

role of the Court,
That is not the
and
conclusions.
findings
to his
motion with respect
,
plaintiff's
For these reasons
standard of review
applied the wrong
the
arbitrator
argument that
is due to be DENIEDV. False Evidence Claim
Plaintiff also argues

false
that Arbitrator Renovitch made a

finding of fact and based her

denial of Plaintiff s

second claim—

afford Plaintiff
1981 by refusing to
violated
42
U.S.C.
§
that AIG
his employment contract as was
make
and
enforce
the same right to
allegedly false
situated white male-on that
similarly
enjoyed by a
that "Rick Pickett
Specifically, Plaintiff argues
finding of fact.
the service agent
identified as having collected
erroneously
was
was given the trial
2012
when
Roy
Watson
position #24 in May
that the Arbitrator [Renovitch]
.
it
appears
manager position. - •
on this concept not present
based her interim decision primarily
Dkt. No. 22 at 7 (quoting
via depositions.
during the trial or
see also
Reconsideration Dkt. No. 22-9 at 4);
Formal Request for
claim number two, Rick Pickett was
("For
dkt. no. 22 at 13
identified as having collected the service
erroneously and falsely
, 2012 by counsel for AIG, that evidence
agent position #24 in May
presented during the entire proceeding,
not
and testimony was
on this
based her decision primarily
however the arbitrator
concept. . •

.") •

17
AQ72A
(Rev, 8/82)

Case 4:17~cv-00U7-LGW-CLR

Plaintiff misreads

Document 29

filed 03/19/19 Page 18 of 19

the interim
and consequently misstates

and conclusions in that award,
findings
award and Renovitch's
Pickett collected the service agent
did
not
find
that
Renovitch
"[t]he preponderance
Instead, she found that
position in May 2012.
legitimate business
shows AIG had a
reliable
record
facts
of the
#24
to temporarily collect on agency
Pickett
reason to appoint
No. 22-11 at 22 (emphases
October 8, 2012." Dkt.
from August 13
(-on August 21, 2012, Claimant found
added); see also id. at 11
else was going to take his vacated
Watson
[that]
someone
out from
Rick Pickett, a white service agent.
position. The agent was
to see Gallo. He told
stunned'
and
immediately
went
Claimant 'was
temporarily taking over service agency
Claimant [that] Pickett was
he wanted Pickett to be able to
limited
time
because
#24 for a
weeks in September
during the 'heavy collection'
make more money
22 ("Claimant claims his Section 1981 and
and October."); idr at
Gallo appointed Pickett to
Title VII rights were violated when
#24 from August 13
temporarily collect premiums on service agency
Thus, Plaintiff's claim that Renovitch
to October 8, 2012.").
Pickett collected on service
relied on the erroneous fact that
contradicted by the
agent position #24 in May 2012 is squarely
Renovitch found that
interim service award, which shows that
position in August 2012.
Pickett first collected on that

18
A0 72A
(Rev. 8/82)

Filed 03/19/19 Page 19 of 19

Case 4:17-cv-00117-LGW-CLR Document 29

,
For these reasons

with respect to his
Plaintiff's motion

due to be DENIED.
false evidence claim, is
CONCLUSION
For

the

foregoing

Arbitration Award,

dkt.

reasons ,
no.

22,

Plaintiff's

Motion to

is hereby DENIED.

DENIED as moot.
pending motions are
19th day of March, 2019.
SO ORDERED, this

co^
SOUTHERN DISTRICT OF GEORGIA

19
MD72A
Rev. 8/82)

Vacate

All other

APPENDIX C

AMERICAN ARBITRATION ASSOCIATION
Employment Arbitration Tribunal

In the Matter of the Arbitration between
Case Number: 01-17-0003-8997
William Anderson, Claimant
American General Life Insurance Company, Respondent
FINAL AWARD OF ARBITRATOR
I,

n> UNDERSIGNED

X-K C**

ziszSS asss’scsxs
previously rendered an Interim Award dated December
The Parties have resolved the matter of att°™y

,

Speciftoflle lervice Manager promotion.
of this re^ron by emads dated ,anu^ 14 and

16,2019.
Claimant has filed a Forma, ^
res
Interim Award. Claimant has replied, stating th

q

J

been issuedj the

".f “ - a <*—. — fully considered and properly resolved m the Interim Aw

.

This Award is in fid, settlement of aU chrnrn, and ~,aims submitted in this arbitration case. A,,
claims not expressly granted herein are hereby denied.

Tanuarv 22. 2019
Date

Patricia A. Renovitch, Arbitrator
APPENDIX C

APPENDIX D

American
Arbitration
Association6

INTERNATIONAL CENTRE
FOR DISPUTE RESOLUTION*

AMERICAN ARBITRATION ASSOCIATION
Employment Arbitration Tribunal

In the Matter of the Arbitration between
Case Number: 01-17-0003-8997
William Anderson
-vsAmerican General Life Insurance Company

INTERIM AWARD OF ARBITRATOR
I, THE UNDERSIGNED ARBITRATOR, having been designated in accordance with the personnel
manual or employment agreement entered into between the above-named parties, and having been
duly sworn, and having duly heard the proofs and allegations of the parties, and William Anderson
being represented by Gwendolyn Fortson Waring of The Waring Law Firm, LLC; and American
General Life Insurance Company being represented by Kenan G. Loomis of Cozen O'Connor, hereby,
INTERIM AWARD, as follows:

Introduction
This is an employment discrimination and retaliation case brought by former employee
William A. Anderson (Claimant) against American General Life Insurance Company (AIG). On July 5,
2017, Claimant filed a Demand for Arbitration with the American Arbitration Association (AAA). AAA
appointed the undersigned Arbitrator on April 11, 2018. A duly-noticed arbitration hearing was
conducted September 5-7, 2018 in Savannah, Georgia. At the hearing, the parties confirmed the
Arbitrator's jurisdiction to resolve the pending claims and presented exhibits and sworn testimony in
support of their positions. On November 7 the parties filed post-hearing submissions.

1

APPENDIX D

Issues
The employment issues presented for consideration and resolution in this arbitration case are:
claim #1: whether AIG discriminated against Claimant, a black male, in the summer of
2012 by failing to promote him to a vacated service manager position in violation of
Title VII of the Civil Rights Act of 1964, 42 U.S.C. 2000e et seq., and Section 1981, 42
U.S.C. § 1981;
claim #2: whether AIG discriminated against Claimant in 2012 by not allowing him to
temporarily collect premiums on vacated service agency 24 in violation of 42 U.S.C.
§1981, and Section 1981, 42 U.S.C. § 1981; and
claim #3: whether AIG retaliated against Claimant in violation of Title VII and Section
1981, by delaying the return of his sales agency book after he engaged in concerted
protected activities, including the filing of an EEOC charge in February 2013.
Relevant Federal Law
The parties agree the issues raised in this arbitration case allege violations of Section 1981, 42
U.S.C. § 1981, and Title VII of the Civil Rights Act of 1964, 42 U.S.C. 2000e et seq. These statutes
provide in in relevant part:
§ 1981. Equal rights under the law
(a) Statement of equal rights
All persons within the jurisdiction of the United States shall have the same right in
every State and Territory to make and enforce contracts, to sue, be parties, give
evidence, and to the full and equal benefit of all laws and proceedings for the security
of persons and property as is enjoyed by white citizens, and shall be subject to like
punishment, pains, penalties, taxes, licenses, and exactions of every kind, and to no
other.
(b) "Make and enforce contracts" defined
For purposes of this section, the term "make and enforce contracts" includes the
making, performance, modification, and termination of contracts, and the enjoyment
of all benefits, privileges, terms, and conditions of the contractual relationship.
(c) Protection against impairment
The rights protected by this section are protected against impairment by
nongovernmental discrimination and impairment under color of State law.
§ 2000e-2. Unlawful employment practices
(a) Employer practices. It shall be an unlawful employment practice for an employer—
(1) to fail or refuse to hire or to discharge any individual, or otherwise to discriminate
against any individual with respect to his compensation, terms, conditions, or

2

privileges of employment, because of such individual's race, color, religion, sex, or
national origin; or
(2) to limit, segregate, or classify his employees or applicants for employment in any
way which would deprive or tend to deprive any individual of employment
opportunities or otherwise adversely affect his status as an employee, because of such
individual's race, color, religion, sex, or national origin.
Weighing and Resolving Conflicting Evidence
An arbitrator has the authority and responsibility to determine the relevance and weight of
evidence. Elkouri & Elkouri, How Arbitration Works. "Evidence - Weight and Credibility of Evidence",
ch. 8.9 at p. 8-91 (7th ed. 2012). When testimony is contradictory, the arbitrator must "sift and
evaluate the testimony to the best of his ability and reach the best conclusion he can as to the actual
fact situation". Id. at p. 8-93. In determining which testimony is credible, the following factors are
appropriately considered:
Interest. While having a stake in the outcome does not disqualify a witness, it renders
his testimony subject to most careful scrutiny.... Few witnesses will deliberately falsify
but there is a common tendency to "put your best foot forward." This tendency, either
consciously or subconsciously, leads many witnesses to remember express testimony
in a way favorable to the result which they hope the Hearing will produce.
Perception. Frequently the initial observation is faulty or incomplete because the
observer has no prior knowledge that a dispute will develop concerning what he had
seen or heard and his casual sensory impression is not sharp and keen.
Memory. The remembrance of an event weeks or months after it occurred is
frequently dim and inaccurate and a witness may be confused as to facts which initially
he correctly perceived. By lapse of time precise details may elude his memory.
Communication. The manner in which a witness expresses what he saw and heard
may fail to communicate exactly his initial perception or the occurrence....
Id. at p. 8-92 [citation omitted]. Other factors are the consistencies or inconsistencies in witness
testimony, the motivation of witnesses, and whether their testimony is reasonable considering the
circumstances of the case.
Findings of Fact
The following findings of fact are based on the preponderance of the reliable evidence
presented at the arbitration hearing on September 5-7, 2018.

3

Claimant's Employment Background
AIG employs a network of sales and service agents throughout the country to sell and service
life and health insurance products. AIG sales agents sell new insurance products. Their compensation
is largely dependent upon their new sales, with a small percentage associated with policy renewals.
Service agents, on the other hand, are primarily responsible for servicing existing business and
ensuring that premiums on this business are paid. Sales and service agents are assigned numerical
sales and service agencies. They report, respectively, to sales managers and service managers.
Thomas Gallo began working for AIG in 1999. He was promoted to general manager of the
Savannah-Jacksonville office in the fall of 2011. Sales manager Carolyn Johnson and service manager
Gary Carroll worked in the Savannah office and reported to Gallo then. Curtis Benton, regional
administrator, was Gallo's immediate supervisor. Benton reported to CMO Steve Parman. Daphne
Luckett was the Director of Persistency. She worked in AIG's Nashville office. In 2012 Luckett had
authority to grant or deny agents' transfer and promotion requests.
AIG hired Claimant as a sales agent in 2003. Before that he was in the military with a "top
secret clearance". He was promoted to associate manager in 2004. As associate manager from 20042007, Claimant supervised sales managers and service managers. He also wrote new business and
received commissions on the business written by the sales and service agents he supervised.
On March 26, 2007 Claimant resigned his associate manager position to return to a sales
agent position. He did this to spend more time with his son while his ex-wife was stationed overseas.
After his son returned to his mother in 2009, Claimant asked to be placed in a recently vacated
service agent position. However, AIG decided not to fill ("blew up") that position. Claimant accepted a
sales agent position in 2009.
Claimant had an at-will employment relationship with AIG during his employment at its
Savannah office.
Promotion Contest for Service Manager Position
Service Manager Carroll's Resignation - Effective April 2, 2012
On October 3, 2011 Claimant met with the new general manager (Gallo). This was one of
many "interviews" Gallo scheduled to become familiar with the employees working in the SavannahJacksonville group. During this meeting, Claimant told Gallo he planned to leave AIG, as he was

4

finishing his master's degree and would be accepting a position at Savannah State University (SSU).
Claimant and Gallo discussed Claimant's history with AIG, including his interest in 2009 in a service
agent position. Before he left the meeting, Claimant gave Gallo a completed "Application for Special
Representative Appointment (Independent Contractor)" which, if granted, would allow him to
continue selling policies and receiving commissions while working for SSU.
In a meeting in late October 2011, Gallo told Claimant Carroll would be retiring in early 2012.
Gallo said he wanted Claimant to stay and compete for the service manager vacancy when Carroll
retired. Gallo told Claimant that if he did not get the promotion, "we'll give you a service agent
position". Claimant considered this a "win-win situation to stay".
in March 2012 Carroll submitted his resignation. It became effective April 2. Claimant (a sales
agent) and service agents Amos Speights, Roy Watson, and Wanda Gibson expressed interest in
applying for the service manager position. Watson is white and the other three applicants are black.
Claimant, Speights and Gibson worked in the Savannah area. Watson was assigned to the Savannah
office, but lived in Brunswick and worked out of his home there.
Criteria for Promotion to Service Manager
Gallo prepared criteria for a promotion contest for the service manager position. The criteria
were not part of any written AIG promotion policies. Gallo created them for this specific promotion.
During the week of March 19, 2012 Gallo held a meeting to announce his promotion contest criteria.
He told the sales and service agents that the winner of the contest was going to be the first1 agent to

1 Service agent Dale Morris and the three black applicants for promotion to the service
manager position testified the promotion contest criteria included the above-described NFYP and
RPR terms. Morris was a "good friend" of Carroll when he was the service manager. Morris also knew
Claimant from working with him from 2011-2013. Carroll asked Morris if he would be interested in
the service manager when he resigned. Morris declined for personal reasons. Morris knew about the
"contest that the general manager [Gallo] put on" for promotion to Carroll's position.
Watson, the only white applicant, testified he didn't remember the "details" of the promotion
contest, but thought Gallo said something like "you had to get to the $350 average and maintain it for
however long the contest lasted". Gallo confirmed he announced contest "criteria", including the
$350 NFYP criterion, but he could not specifically recall the other criteria. A customer service
representative testified in vague terms about the contest terms.

5

produce at least $350 worth of net annual premium and sales (NFYP) while maintaining a service
agent renewal persistency rate (RPR) of at least 93%. Gallo said the contest would start after Carroll
retired; he did not state an ending date. As described below, the contest ended on August 13 when
AIG approved Watson's promotion to service manager.
Claimant testified he and the other two black applicants were "not very happy" about the two
($350 NFYP and 93% RPR) contest criteria for promotion Gallo announced at the March 19, 2012
meeting. To alleviate their concerns, Gallo assured them no one had satisfied these criteria so far.
Watson did not object to the criteria. As the only sales agent applicant, Claimant was troubled by the
RPR requirement. The sales agent RPR was calculated differently than the service agent RPR. Claimant
met with Gallo after the March 19 meeting to ask his about the RPR requirement. Gallo assured
Claimant the service agent RPR criterion did not apply to him.
First Applicant Who Met Promotion Criteria Not Promoted
After Carroll's resignation became effective on April 2, 2012, Gallo began posting on the office
"production board" (also called the "white board") the NFYP and RPR numbers of the applicants. He
did this each week. Claimant monitored the board. He saw the postings in April showing Watson met
the $350 NFYP criterion but not the 93% RPR criterion. Gallo did not announce Watson as the winner
of the contest in April.
Speights was the first applicant to meet both contest criteria. He produced a NFYP of more
than $350 while maintaining an RPR over 93% on April 23, 20122. Claimant saw this on the new
business report posted on the white board that morning. Claimant congratulated Speights when he

The preponderance of the reliable evidence supports the $350 NFYP and 93% RPR criteria
specifically recalled by the credible testimony of Morris and the three black applicants. The
preponderance of the reliable evidence also supports the finding that when Gallo announced the
criteria in March 2012, he stated the promotion would go to the first agent who met the two ($350
NFYP and 93% RPR) contest criteria. During the contest period, Gallo appears to have confirmed this,
as shown, for example by his email to Benton on July 10, 2012 (email is quoted in the below Findings
of Fact). All the black applicants specifically testified Gallo said the first agent to satisfy the criteria
would win the promotion contest.

2

The undisputed evidence of record confirms that Speights was the first agent applicant to

satisfy both promotion contest criteria.
6

got to the office shortly after the posting. When Claimant and Speights came back to the office that
evening, the production board numbers for Speights were not there. Gallo did not announce Speights
as the winner of the promotion contest in April. Speights waited for Gallo to announce the contest
was over, but Gallo did not do that in April.
Pre-Promotion Partialities Shown to Watson
In January 2012 Carroll told Watson he would be retiring. He also told Watson there was going
to be a contest to fill his position. On January 26 Watson filled out AIG's "Advancement Opportunity
Indication of Interest" form to show his interest in the service manager position. On March 14, 2012
Watson sold his wife an AIG policy with an annual premium of $979.80. This was a few days before
Gallo announced the promotion contest criteria. On March 23 Watson sold his wife another policy.
On March 26 Watson submitted to Gallo a promotion interest form. This was the same day Watson
exceeded the $350 NFYP minimum sales criterion, but did not meet the RPR contest criterion.
Sometime between April 2 and 9, 2012, Gallo interviewed3 Watson for the service manager
position. On April 9 Gallo submitted a "General Manager Letter or Recommendation for Promotion"
form in which Gallo recommended Watson's promotion to the service manager position. On this form
Gallo states:
I am recommending service agent Roy Watson for a promotion to the Service Manager
position. In his many years of service to AGLA, Roy has shown his leadership
qualifications by the example he sets to this fellow service agents both out in the field
and in the office. Numerous times he has lead [sic] the service agents in the office with
his sales ability as well as been a company leader. He has a positive, upbeat attitude and
is a great example to the veteran service agents as well as the newer sales agents. At
first being new at my position, I really did not know Roy that well. After meeting and
interviewing him for the position, I believe he is the best candidate for the position and
will do an excellent job. His philosophy of growing the sales of his new staff is in
alignment with the company's goals as well as mine for the service side. 1 know he will
be an excellent leader as well as be an asset to the great Jacksonville-Savanna team.
Gallo submitted this recommendation for Watson's promotion even though Watson had not met
both promotion contest criteria.

3 The record does not show Gallo personally interviewed any applicant besides Watson for
the service manager position. Before Watson's April 2012 "interview", Gallo had previously (on
March 26) submitted a form to upper management stating Gallo had "discussed" the service manager
position with Watson and Watson had elected to "accept further consideration for this position".
7

On May 14, 2012, Gallo appointed Watson temporary service manager and requested a
$500.00 weekly salary increase to compensate him for performing the service manager duties. Upper
management approved the increase. Watson reviewed service agents' new business reports and
posted their weekly "numbers" on the white board. Watson had not met both promotion contest
criteria in May and Gallo did not announce Watson the winner of the promotion contest that month.
Watson's temporary appointment to the service manager position gave him access to
information and documents which were inaccessible to other applicants. For example, Watson
reviewed the new business reports of the other applicants while applicants had access only to their

own business in those reports. These reports list policies, or "business," to be issued in the next two
weeks. The record does not show Watson used this information to his advantage during the contest
period. Neither does the record show Watson used other AIG records inaccessible to the other
applicants (including the "890 Reports") to his advantage before he was promoted in 2012.
As temporary service manager, Watson could "push through" business. Usually this was done
by making phone requests to Underwriting. Gallo could also push through business. During the
promotion contest and while Watson was the acting service manager, Gallo asked Diane Hardwick, a
customer service representative (Hardwick), to help him "push through" Watson's business. Hardwick
recalled one instance where Gallo called Benton to get a policy of Watson's pushed. The record does
not show that Watson himself used his authority to "push" business through to his advantage during
the three months he was temporary service manager.
On July 10, 2012 Gallo sent an email to Benton which confirms Gallo's belief at that time that
both the $350 NFYP and 93% RPR criteria had to be met by the applicant agent who would be
promoted to the service manager position. Gallo's email stated in relevant part:
Roy [Watson] has gotten his RPR back up to 93.5% as required. ... His NFYP is still low,
but with what we have in underwriting being issued he will be about the $350.00. Is
there a possibility for extending his $500 another 4 weeks? He is managing the staff,
attending all the management meetings, as well as doing all the responsibilities that
come with the position and running his own book. Thank you.
Watson exceeded the required minimum $350 NFYP contest criterion several times in April and May
2012, but each time his RPR was below 93%.

8

On July 14, 2012 Watson's wife purchased another substantial policy (with an annual premium
of $1,044.00). Upper management reviewed a "Personnel Change Review" form for Watson's
promotion to service manager; there are four signatures on the form, the first on July 27 and the last
on August 1 (signature by "HR, Legal"). A note on the form states:
He has reached 93.55 persistency
365 NFYP
Good job!
On August 6, 2012, Gallo and Watson both signed an "Advancement Opportunity Job Offer"
form. This was the formal or "official" request for Watson's promotion to service manage (SM). The
form indicated Watson "accepted the position as offered". The completed form also shows the
requested promotion to service manager became effective on August 13.
After he became service manager on August 13, 2012, Watson testified he wanted Claimant to
"acquire his book". At the time service agency #24 had a book of about $500K. Watson testified
about Claimant as follows:
William had to me the best - knowledge, the best personality for the position he had to
- to do any kind of job that we had. And so I personally wanted him on my staff and
went to bat numerous times to get him over.
And listening to him and the product knowledge he had, I just knew he would be a big
asset. But bottom line ... I got to say with the knowledge, with the personality,
everything ...
He wasn't doing nowhere near his ability, and that was the reason that I could never get
him approved to move over to the service book.
Claimant's Complaints about Promotion Process
The new business report for July 30, 2012 shows Watson satisfied both contest criteria for the
first time. This information was not posted due to Gallo being on vacation, so the other applicants did
not know Watson's numbers for July 30. On August 6 Claimant knew he had $350 NFYP (the only
criterion he had to meet).
When Claimant walked into the Savannah office on the morning of August 6, 2012, he heard
employees saying Watson was going to take over the next week. Claimant went directly to Gallo's
office to ask him if this was true. Gallo told Claimant Watson met the numbers. Claimant told Gallo

9

"what are you doing, I'm eligible also, I made it". Gallo didn't deny Claimant's assertion. Instead, he
told Claimant he couldn't "pull it back, it's already been signed off". Claimant complained, saying "I
should be considered, I made the numbers, what are you-all going to do?"
At the August 6, 2012 meeting, Gallo started talking about Claimant taking the service agent
position to be vacated by Watson. Gallo told Claimant he would "make it worth your while" because
"you'll get the book of business (service agency #24) and you can transfer your personal business
over to make a larger book of business". Claimant accepted the offer even though he still thought the
promotion contest had not been fair.
From March through August 6, 2012 Gallo never told Claimant he was not qualified to become
service manager if he satisfied the contest criterion applicable to him. To the contrary, Gallo had
encouraged Claimant to apply for the position. During this period neither Watson nor Claimant knew
about a "traffic light strategy" to determine how well agents managed monthly account ordinary
(MAO) business. Gallo did not tell them, and they did not know about, a MAO color classification
guideline that might be considered for promotions to the service manager position.
Claimant's Temporary Appointment to Service Agency #24
After Watson was appointed to the service manager position on August 13, 2012, and while
Claimant's transfer request to transfer to service agency #24 was pending, service agency #24 needed
to be covered. Claimant thought he was going to be appointed by Gallo to temporarily service
Watson's prior service agency. That is what Gallo had told him at their August 6 meeting.
On August 27, 2012, Claimant found out from Watson someone else was going to take his
vacated position. The agent was Rick Pickett, a white service agent. Claimant "was stunned" and
immediately went to see Gallo. He told Claimant Pickett was temporarily taking over service agency
#24 for a limited time because he wanted Pickett to be able to make more money during the "heavy
collection" weeks in September and October. Gallo said this would repay Pickett for the work he did
on service agency #24 while Watson was temporarily assigned to the service manager position. Gallo
also brought up Claimant's request to go on vacation in September as a reason not to temporarily
assign him to service agency #24.
Claimant and Gallo "went back and forth," at the August 27, 2012 meeting. Finally, Claimant
reluctantly agreed to a deal Gallo proposed. Gallo would approve a 2-week vacation for Claimant in

10

September and then assign him to temporarily take over agency #24 on October 8. Gallo later
confirmed the deal in Watson's presence, saying "I've cleared it upstairs". Claimant took a vacation
in September 2012. After he returned, Gallo assigned Claimant to temporarily collect on service
agency #24 starting October 8.
Transfer of Personal Business to Service Agency #24
On September 7, 2012, Claimant initiated a request to transfer his non-collectible personal
business in sales agency #79 to service agency #24. He did this while waiting for his application for a
lateral transfer to service agency #24 to be processed.
Claimant requested to transfer only his non-collectible business (accounts where payments
were mailed or bank-drafted). The request did not include his collectibles of about $1,200.00
(accounts where premiums had to be physically collected). Claimant did not want his collectible
business transferred to service agency #24. Gallo approved Claimant's request, as submitted, but it
still needed the approval of upper management.
AIG transferred Claimant's entire business block to service agency #24. Claimant's collectible
business at the time was still $1,200. When review of the transfer request was completed on
November 30, 2012, Claimant's collectible business ($1,200) was included.
Claimant worked on service agency #24 and sales agency #79 until December 11, 2011. That
was the day Gallo told him Luckett had denied his lateral transfer request.
Request for lateral Transfer from Sales Agent to Service Agent
After Watson was formally appointed service manager on August 13, 2012, he gave up his
service agency #24. On August 10 Benton and Parman both approved Claimant's lateral transfer from
sales agent to service agent "if he qualifies". Parman told Benton he would "work with Tom [Gallo]
and Daphne [Luckett]".
Claimant submitted a request to transfer to service agency #24 on September 7, 2012. On
September 11 Gallo notified Claimant by email that he needed to submit a "letter stating that once
you left sales to go to service you understood you could not go back." Benton informed Gallo on
September 24 he was waiting for Claimant's letter of agreement to give up his sales agency #79.
On October 8, 2012 Claimant submitted a letter confirming his willingness to state this
understanding. The same day Gallo emailed Benton saying "everything is in to get William Anderson

ll

moved from sales agency #79 to service agency #24. ... I am wondering if we can get this done asap.
Thanks". Claimant started collecting on service agency #24 on October 8.
On October 11 and 12, 2012, Gallo emailed Benton about the status of Claimant's pending
lateral transfer request. Benton replied that Claimant's request "will most likely be looked at when
Steve [Parman] gets back on Monday". On October 16 Gallo emailed a letter to AIG's "Senior
Management" team, again urging Claimant's transfer to a service agent position be considered and
approved asap, stating in part:
I am hoping that you approve his transfer. This is not something that all of a sudden he
is interested in doing. William has wanted to transfer to the service side for more than
two years.... I told him what he needed to accomplish to be able to transfer and he did
as he needed to. As a sales agent William is okay. I do believe he would be better suited
to the service side. He has excellent service skills. Plus, because he is older, he has been
closer with the service agents that the sales agents throughout his career. The SM and I
agree he would be a boost of sales energy to the service side with. He is a firm believer
in the IUL & GUL products. We believe he will be infectious with these products, to the
older service agents....
In closing, please approve his transfer as it would be beneficial to William and the entire
FL5A team.
Luckett was the final decision maker on Claimant's requested lateral transfer. She testified
that in 2012 AIG had a "traffic light strategy" to determine how well agents managed monthly
account ordinary (MAO) business. The published "Service Agent Recommendation Guidelines" in
affect then state the MAO color classification for a service agent "should be green or yellow". AIG
unwritten policy required Luckett to follow this published guideline.
When Luckett considered Claimant's transfer request on December 10, 2012, the quarterly
compensation report register showed the MAO classification for sales agency #79 (Claimant's sales
agency) was blue for the third quarter (July-September). This meant Claimant's collectible business
(premiums which had to physically collected) was blue during this time. Claimant was unaware of the
code green or yellow requirement. Watson did not know about this requirement either.
Luckett denied Claimant's transfer request solely because the AIG report showed sales agency
#79 was code blue throughout the third quarter. Luckett did not know Claimant's race when she
made her decision. Luckett sent an email on December 10 to "Southeastern Region" which states
(bolding added for emphasis):
12

Agent Anderson is MAO Color Classification blue due to his performance results from Q3
2012 and is still color classification Blue as of 12/10/12. Unless you have additional
information to consider, agent is not eligible to be considered for service at this time.
Also, original approval was given to fill agency 24 in August based on FMs plan to place
186, 80 and 175 on counseling for production. Please advise results from this plan.
No "additional information" was provided by Gallo or Benton to Luckett for further consideration.
After Luckett denied Claimant's lateral transfer request, Gallo "blew up" agency #24 by
distributing the business to eight agents. Six agents were black and two were white. The white agents
received substantially larger portions than the black agents. For example, he gave $100,000 to Pickett
and $35,000 to Gibson.
Claimant's Complaints to AIG HR and EEOC
Claimant attempted to appeal Luckett's December 10, 2012 decision not to approve his lateral
transfer to service agency #24. In late December he contacted the AIG human resources department
(AIG HR). He submitted a four-page written complaint to initiate the process. The first paragraph
states:
I am writing this as an employee disagreement for resolution concerning what has
occurred to me over the past year. Please investigate my concerns.
The complaint describes events from October 2011 through December 11, 2012.
The AIG HR Consultant, Faye Bailey, sent Gallo an email on January 2, 2013, directing him to
respond to the complaint. Her email to Gallo stated:
I have a complaint from William Anderson regarding his request to transfer from sales to
service. Can you please provide me with a written statement regarding his request. I
need to know when he first requested the transfer and if he was ever told it was going
to be approved. Also when he vyas advised it was denied.
On January 2, 2013 Gallo responded to Bailey with the following letter:
As per your request, I am writing a brief statement of the complaint filed with you by
agent William Anderson, concerning his transfer to service in August 2012, when it was
official that Roy Watson would be promoted to SM. He has wanted to be transferred to
the service side since 2010. William had to get all his requirements in order before he
would be eligible for the 9/7/12 we submitted the transfer. His requirements were
where they needed to be, but he was missing a letter stating he knew that once he
transferred he could not come back to the sales side. I did not get that from him till
9/24/12 and faxed it to Steve Parman. On 10/8/12 William asked me about the statue of
13

his transfer. I checked with Steve Parman. He said all the requirements were fulfilled
and that it was sitting on senior management's desk. I relayed this to William. On
10/16/12, I wrote a letter to senior management. I let them know why he wanted the
transfer, my feelings about William transferring and my recommendation to transfer
him. In the next two months I was in constant contact with Steve Parman as to when the
transfer would get final approval. Each time I spoke with Steve, I informed William that
we were still waiting for the final approval. William was a temporary collection agent on
agency #24, while waiting to be moved there permanently. A request to have him
continue serving that agency was declined on 12/10/12. That's when we found out that
his numbers had fallen below the company requirements and that he old not be
transferred. I told him at that time when I found out. He was informed numerous times
by his present AM, he new SM and I that he had to keep working and keep his numbers
up. Obviously, that did not happen.
If William wants to continue the transfer process, he is more than welcome to. I know
we have spoken and he knows what the requirements are to be transferred.
Please let me know if you need any additional information.
On January 15, 2013, Claimant contacted EOOC. An EEOC employee prepared a draft charge
based upon what they discussed. EEOC mailed the draft charge for Claimant's signature on January
29. On February 13 Claimant went to the EEOC office and filed an amended charge which specifically
alleged the 2012 promotion contest for the service manager position discriminated against the black
applicants, including himself, stating in part:
In March 2012, the Service Manager position became vacant. Mr. Gallo informed us that
the first person to reach 350 wk NFYP in sales would be promoted to the position of
Service Manager. One Caucasian male announced he was so far off the numbers he
would not continue to complete. The three of us [the black applicants] remaining
African Americans began to notice the company's push in assisting the remaining
Caucasian towards making his numbers (April 23, 2012 Amos Speights (African
American) made the goal of 374 and was overlooked by management and not offered
the job). In June 2012, management approved Roy Watson (Caucasian) to work as trial
Service Manager in Savannah GA and paid him $500 extra weekly for community 2-3
days a week from where he lived in Brunswick GA while the 3 remaining African
Americans who live and work in Savannah GA were not offered the opportunity to work
on a trial basis at all. Unlike the Caucasian male, the two of us African American males
had prior management experience in the company and the female African American was
LUTCG qualified, yet no opportunity was afforded to us,...
This detailed EEOC charge was served upon AIG and provided clear notice of Claimant's allegation of
a discriminatory service manager promotion contest Gallo conducted in 2012.
14

Reverse Transfer of Claimant's Block of Business Delayed
Claimant started to collect on service agency #24 on October 8, 2012. A month earlier, he
requested his "block of business" be transferred from his old sales agency #79 to service agency #24.
He did this anticipating his pending lateral transfer request to service agency #24 would be approved.
The transfer request took several months (from September to December 2012) to be processed.
After Claimant's request to transfer to a service agent position was denied by Luckett on
December 10, 2012, he decided to request that the November 30 transfer of his block of business to
service agency #24 be reversed. He asked Hardwick in early January 2013 to transfer his personal
business back to sales agency #79, which he understood to mean his family business. He made this
request after his efforts to appeal the denial of his lateral transfer to service agency #24 were
unsuccessful. Hardwick could process a reverse transfer, but she needed Gallo's prior approval. Gallo
told Hardwick "his hands were tied waiting for Mr. Benton to give the okay".
Luckett testified AIG's strategy in 2012-2013 in Benton's southeast region was to move all
collectible business to service agents. If a block transfer request included collectibles, it had to go
through an "exception" process. This required review and approval by both Benton and Parman.
Because Claimant's block of business included collectibles, his block transfer was reviewed by Benton
and then Parman.
At the time Claimant requested a reverse block transfer of his agency #79, his block of
business had collectibles on it amounting to about $1,200. So even though Claimant did not want his
collectibles to be in included in the reverse transfer, that request had to be reviewed and approved
by Parman. Gallo finally received approval from Benton and Parman in March 2013. He immediately
told Hardwick to effectuate the reverse transfer. It took Hardwick "a couple of weeks" to implement
the transfer Claimant's business back to sales agency #79. Claimant's block of business was not
returned to Claimant until April. He lost income in the amount of $672 each month he waited for the
return of his block of business.
Claimant did not know Gallo had to get approval from Benton and Parman to complete his
reverse block transfer request. Luckett testified a reverse transfer request like Claimant's could take
up to three months if it contained collectible business. From January through April 2013, Claimant
was "struggling for income". He submitted a request on April 23, 2013 to become a special agent,

15

which if granted, would allow him to continue selling AIG products while doing other work. This
request was granted on June 20. Claimant remained a special agent with AIG until 2017.
Claimant pursued his EEOC claims federal court. A court order sent the case to arbitration
pursuant to the American General Life Companies Employment Dispute Resolution Program in effect
during Claimant' employment with AIG. Clamant filed his Demand for Arbitration with AAA on July 5,
2017. The hearing on the merits of the claims in this arbitration case was conducted September 5-7,
2018 in Savannah, Georgia. The parties filed post-hearing submissions on November 7.
The sales agent positions in the Savannah office were eliminated on January 6, 2016. The
service agent positions were eliminated April 30. AIG closed the Savannah office on April 30, 2016.
Claimed Damages
Claimant concedes he "cannot state definitively what his income should have been in the
service agent position as he can only speculate as to what commissions he might have received had
he been transferred to the service agent position beginning in August 2012

. The damages he

claims for lost income as a service manager amount to $215,095.20. Claimant testified he calculated
these damages based on an "estimate or a snap shot," stating (bolding added for emphasis):
Q. You cannot tell me the formula to calculate the service manager damages you're
claiming in this case, can you?
A. No, but I told you before I think that when I talked about a snapshot, you have to
find out what the agents overrides were just during that period, knowing that they
would vary. You have to take an estimate or a snapshot. It would not be a science, and I
think I was alluding to you have to just make a determination what would be fair
because our industry is uniquely different.
As I said before, everybody's pay fluctuates based on so many variables. It's not just an
hourly rate nor is it just an annual commission, what they call an annual pay, I made
$50,000 a year, what they call it annual. I'm not sure. I forgot the word for it when you
just make a fixed amount regardless of how many hours you work.
Claimant also seeks compensatory and punitive damages of an unspecified amount. The
record contains only vague testimony by Claimant, for example "I was really going through a lot... a
lot of stress" to support compensatory damages.
Positions of the Parties on their Arbitration Hearing Claims

16

Claimant raised, presented, and preserved three claims at the arbitration hearing conducted
September 5-7, 2018 in Savannah, Georgia. Both parties filed lengthy post-hearing submissions on
November 7 in support of their positions on the three alleged violations of Title VII, 42 U.S.C. 2000e et
seq., and Section 1981, 42 U.S.C. § 1981.
Claimant's Position
Claimant contends the record shows racial discrimination and retaliation by AIG in violation of
his Title VII, 42 U.S.C. 2000e et seq., and 42 U.S.C. § 1981 rights. He seeks lost income damages,
compensatory damages, and punitive damages, as well as an award of a reasonably attorney's fee.
Claimant asserts AIG discriminated against him in violation of Title VII and Section 1981 by not
promoting him to service manager (claim #1) and by allowing Pickett to collect on service agency 24
(claim #2). Claimant also asserts AIG retaliated against him in violation of Title VII and Section 1981 by
delaying the reverse transfer of his book of business after he filed complaints with AIG HR and EEOC
(claim #3). It is Claimant's position that his at-will employment relationship with AIG constituted the
requisite contractual relationship upon which to base his Section 1981 claims.
Claimant contends he has prevailed on the above-identified three claims which were
presented for resolution at the arbitration hearing. Claimant seeks an award finding violations of Title
VII and Section 1981, and related monetary, compensatory, and punitive damages. He also requests
the award of a reasonable attorney's fee.
AIG's Position
As to claim #1 (racial discrimination arising from Claimant's failed attempt to be promoted
from a sales agent to a service manager in 2012), AIG contends Claimant was not qualified.
Alternatively, even if qualified and Watson received "special help," AIG contends Watson was the
more qualified applicant. As to claim #2 (racial discrimination for allowing Pickett to temporarily
collect premiums on service agency #24), AIG argues Claimant was not qualified to perform service
agent duties and the appointment was reasonably based on Pickett's deserving a "reward" for having
covered Watson's agency after Watson was temporarily appointed service manager on May 14, 2012.
As to claim #3 (retaliation by delaying Claimant's reverse block transfer in 2013 because he
filed an AIG HR complaint in December 2012 and an EEOC charge in early 2013), AIG argues this
reverse transfer took three months because Claimant's block of business included collectibles. AIG

17

policy at that time for a reverse transfer with collectibles required multiples levels of approval
because it was "disfavored". AIG asserts Claimant failed to prove any of these claims.
AIG seeks denial of Claimant's arbitration claims and dismissal of this case.

Discussion and Opinion
The SM promotion contest discriminated against black applicants, including Claimant (claim #1).
Section 1981 prohibits racial discrimination in the "making, performance, modification, and
termination of contracts, and the enjoyment of all benefits, privileges, terms and conditions of the
contractual relationship." 42 U.S.C. § 1981(b). Title VII prohibits employment discrimination "against
any individual with respect to his compensation, terms, conditions, or privileged of employment,
because of such individual's race ...". 42 U.S.C. § 2000e-2(a)(l). Claimant alleges AIG violated these
federal statutes by conducting a racially discriminatory promotion contest for the service manager
(SM) position in 2012 at its Savannah office. Because of this discrimination, Claimant asserts he was
denied a promotion to SM. This is claim #1.
Claimant concedes there is no direct evidence of racial discrimination with respect to his
attempt to become the SM. Instead, he relies on circumstantial evidence. The burden-shifting
framework established by McDonnell Douglas Corp. v. Green, 411 U.S. 792 (1973) is therefore
applicable. Under both Title VII and Section 1981 analyses, the burdens placed on each party are
similar. The burden-shifting process is described in McCann v. Tillman, 526 F.3d 1370,1373 (11th Cir.
2008) (Title VII racial discrimination case) as follows:
Title VII prohibits employers from discriminating "against any individual with
respect to his compensation, terms, conditions, or privileges of employment, because of
such individual's race, color, religion, sex, or national origin." 42 U.S.C. § 2000e-2(a)(l).
Where, as here, there is no direct evidence of discrimination, a plaintiff may prove
discrimination through circumstantial evidence, using the burden-shifting framework
established in McDonnell Douglas Corp. v. Green, 411 U.S. 792, 93 S.Ct. 1817, 36 L.Ed.2d
668 (1973). To establish a prima facie case for disparate treatment, McCann must show
that "(1) she is a member of a protected class; (2) she was subjected to adverse
employment action; (3) her employer treated similarly situated [white) employees more
favorably; and (4) she was qualified to do the job." EEOC v. Joe's Stone Crab, Inc., 220
F.3d 1263, 1286 (11th Cir.2000). If McCann satisfies these elements, the appellees must
provide a legitimate, nondiscriminatory reason for their action. Burke-Fowler v. Orange
County, Fla., 447 F.3d 1319, 1323 (11th Cir.2006). if this burden is met, McCann must
then prove that the appellees' reasons are a pretext for unlawful discrimination. Id.

18

See also Moore v. Grady Memorial Hospital Corp., 834 F.3d 1168, 1171-72 (11th Cir. 2016) (Section
1981 case concerning racially discriminatory practices).
Applying this burden-shifting test to claim #1, Claimant must prove (1) he is a member of a
protected racial class, (2) he was subjected to an unfair promotion contest due to his race, (3) a
similarly-situated white applicant (Watson) was treated substantially more favorably, and (4) he was
qualified to apply for and be recommended for the SM position. Claimant is a black male. He was an
AIG sales agent when he sought promotion to the SM position vacated by former SM Carroll. At
Gallo's urging in late 2011, Claimant had declined a job offer and remained an AIG sales agent so he
could compete for the expected SM vacancy.
The general manager of the Savannah-Jacksonville office (Gallo) had authority to select and
recommend Carroll's replacement. He announced SM promotion contest "criteria" to Savannah office
sales and service agents on March 19, 2012. According to the unwritten contest criteria, the winner
would be the first agent to produce at least $350 worth of net annual premium and sales (NFYP)
while maintaining a service agent renewal persistency rate (RPR) of at least 93%. The RPR criterion
did not apply to sales agent applicants. The SM promotion contest began April 2, the effective date of
Carroll's retirement. Three black agents (Claimant, Speights, and Gibson) and one white agent
(Watson) told Gallo they wanted to compete for the promotion.
The overwhelming record evidence shows the SM promotion contest was a pretext to
promote the white applicant (Watson). No black applicant had a genuine opportunity to win. Gallo
showed substantial preferential treatment toward Watson before and throughout the contest. For
example, during the first week of the contest (April 2-9, 2012), Gallo personally interviewed only
Watson. On April 9 Gallo submitted a written promotion recommendation to upper management for
Watson even though he had not met the NFYP and RPR contest criteria. Speights was the first
applicant to satisfy all the announced contest criteria. The April 23 new business report shows this.
However, Gallo did not recommend him for promotion. The contest continued.
Gallo appointed Watson as temporary SM on May 14, 2012. This increased his weekly salary
by $500.00. Claimant had prior experience managing AIG sales and service agents (from 2004-2007),
but Gallo preferred Watson. Gallo authorized service agent Pickett to help Watson service agency #24

19

{Watson's service agency) during the temporary appointment. After Watson became SM, Gallo
rewarded Pickett by allowing him to collect on Watson's former agency #24 for two months.
Gallo "pushed through" new business for Watson during the SM contest. Shortly after
Watson's wife bought a substantial policy on July 14, 2012, Gallo initiated the formal process for
Watson's appointment as SM. The new business report for July 30 shows Watson met the RPR and
NFYP contest criteria. Claimant made his numbers on August 6, as the new business report for August
13 shows. Claimant was qualified to apply for and be recommended by Gallo to the SM position.
Claimant met with Gallo on August 6 and complained about not being recommended since he had
satisfied the contest criteria applicable to him. Gallo did not deny Claimant's assertion.
These and other record facts reveal Gallo created, altered, and implemented SM promotion
criteria to favor the white applicant. The three black applicants including Claimant had no genuine
opportunity to compete against the sole white applicant. These facts in this record prove a prima
facie racially discriminatory SM promotion process.
AIG did not present a legitimate, nondiscriminatory reason for Watson's promotion. The
record shows blatant favoritism of Watson before and during the promotion process, and
demonstrates Gallo created and implemented the contest as a pretext to promote Watson. Speights
was in fact the first applicant to meet all the contest criteria. He did this on April 23, but Gallo did not
select him. Instead Gallo extended the contest so Watson could meet the NFYP and RPR numbers.
When Gallo's actions are considered in their entirety, they reasonably infer he was never
going to promote a black applicant — not Speights, not Claimant, and not Gibson — regardless of
whether and when any of them satisfied the contest criteria. Gallo's preferential treatment of
Watson demonstrates the promotion contest was a sham. The contest was created to make it appear
black applicants had the same opportunity to be recommended for promotion as the white applicant,
when they did not in reality have such an opportunity.
Consideration of the preponderance of the reliable evidence in this record shows Gallo's
promotion process and ultimate recommendation of the only white applicant for the SM position,
with upper management's approval, discriminated against the black applicants including Claimant.
Accordingly, Claimant proved the SM promotion contest was racially discriminatory in violation of his
Section 1981 and Title VII rights.

20

The temporary appointment of Pickett to service agency #24 did not violate federal law (claim #2).
Claimant claims his Section 1981 and Title VII rights were violated when Gallo appointed
Pickett to temporarily collect premiums on service agency #24 from August 13 to October 8, 2012.
This is claim #2. To prove this, Claimant must satisfy the above-described burden shifting test. The
record shows Pickett helped service Watson's agency #24 after Gallo appointed Watson temporary
SM on May 14 and before Watson was promoted on August 13. Gallo testified he made this
temporary appointment on August 13 to "reward" Pickett for doing that work.
Claimant objected to Pickett's temporary appointment because Gallo had promised it to him
when they met on August 6, 2012. At a second meeting on August 27 to discuss this issue, Claimant
reluctantly accepted Gallo's decision to appoint Pickett because (1) he would be on vacation for two
weeks in September and (2) Gallo promised to temporarily appoint him to service agency #24 on
October 8. Claimant temporarily collected on service agency #24 from October 8 to December 11, the
day Gallo told him Luckett had denied his lateral transfer request to service agency #24. Pickett and
Claimant each temporarily collected on service agency #24 for the about same amount of time.
The preponderance of the reliable record facts shows AIG had a legitimate business reason to
appoint Pickett to temporarily collect on agency #24 from August 13 - October 8, 2012. Claimant did
not prove this rationale was discriminatory. What the record shows is that Gallo promised the August
13

October 8 temporary appointment to Claimant, but gave it to Watson based on the

nondiscriminatory justification explained to Claimant at the time. The evidence does not show the
temporary appointment of Pickett to collect on agency #24 violated Claimant's Section 1981 or Title
VII rights. Accordingly, Claimant did not prove claim #2.
AIG's reverse block transfer of Claimant's book of business did not violate federal law (claim #3).
In claim #3 Claimant alleges his Section 1981 and Title VII rights were violated when AIG failed
to timely transfer his book of business from service agency #24 to sales agency #79. He made this
request in January 2013 after his appeal to AIG HR did not provide relief from Luckett's December 10,
2012 denial of his lateral transfer to service agency #24. The reverse block transfer was completed in
April 2013. Claimant's retaliation claim is analyzed under the above-described burden-shifting
framework established by McDonnell Douglas Corp. v. Green, 411 U.S. 792 (1973).

21

During the time AIG made his reverse block transfer request, AIG's strategy in its southeast
region where Claimant worked was to move all collectible business to service agents. Because
Claimant's block transfer request included collectibles, it had to go through an "exception" process.
This required review and approval by both the regional administrator (Benton) and CMO Parman.
Luckett testified this process could take 2-3 months. In Claimant's case, it took about three months.
Claimant was unaware of this AIG strategy, the "exception" process, and how long a reverse block
transfer like his could take. Claimant understandably surmised AIG might be retaliating against him
based on his AIG HR and EEOC complaints filed during the winter. But that belief, however sincere, is
not substantiated by reliable record evidence.
The preponderance of the reliable record evidence shows a three-month reverse block
transfer time was not unusual in 2013 when collectibles were part of the book of business and the
reverse block transfer was from a service agency to a sales agency. The temporal relationship
between Claimant's reversal request and the reversal itself does not show a causal connection
between Claimant's complaints about denial of his lateral transfer request and the return of his book
of business in April 2013.
AIG proved it had a legitimate, non-discriminatory reason for the time it took to process
Claimant's reverse block transfer request. The preponderance of the reliable record evidence does
not establish AIG delayed this process in violation of Claimant's Section 1981 or Title VII rights.
Accordingly, Claimant did not prove claim #3.
What is an appropriate remedy?
Claimant put AIG on notice of the discriminatory SM promotion process (claim #1) in early
2013. This specific allegation is described in detail in the complaint Claimant filed with EEOC on
February 13, 2013. AIG had the opportunity and ability to investigate and remedy the discriminatory
promotion process to which black applicants were subject in 2012. AIG could have required the SM
promotion process to be redone in a nondiscriminatory manner after Claimant filed this charge with
EEOC. However, AIG took no action of record in 2013 to remedy the discriminatory 2012 SM
promotion contest at its Savannah office.
Claimant did not file claim #1 with AAA until July 5, 2017. AIG's Employment Dispute
Resolution Program, at Section 2A (Arbitration and Mediation - Initiation of the Process) allowed

22

Claimant to submit his claims of racial discrimination to final and binding arbitration "at any time
subject to defenses applicable to the timeliness of the claim." Had Claimant initiated the arbitration
process in 2012 or 2013, a timely resolution might have remedied the promotion issue before the
Savannah office was closed April 30, 2016.
It is six years since the discriminatory treatment of Claimant occurred. Requiring AIG to
implement a fair, nondiscriminatory promotion process for the SM position now is not a feasible
remedy. The office is closed and the applicants for the SM position no longer work there. The only
potential remedy at this point is pecuniary.
Lost Income Damages and Compensatory Damages
While monetary and compensatory damages are recoverable under Title VII and Section 1981,
they must be supported by reliable record evidence (not speculation or vague testimony). The
standards of proof under Title VII and Section 1981 are comparable. Patterson v. P.H.P. Healthcare
Corp., 90 F.3d 927, 939, and 941-42 (5th Cir. 1996). Indirect proof may include estimates based on
assumptions, as Claimant points out in his Proposed Order at page 39, but such estimates must be
adequately grounded in reliable facts.
In its post-hearing brief AIG states it "vehemently disputes any damages award is appropriate
in this case given the lack of liability". AIG contends Claimant's requested monetary damages cannot
be awarded because they are all speculative. AIG cites to a 2004 district court case in Kansas, where
the court cautioned about awarding damages based on speculative information, stating:
With regard to the recovery of pecuniary damages, a plaintiff may be awarded
actual damages only; those claimed damages that are speculative, remote, or uncertain
may not form the basis of a lawful judgment. "The actual damages which will sustain a
must be established, not by conjectures or unwarranted estimates of witnesses, but by
facts from which their existence is logically and legally inferable. The speculations,
guesses, estimates of witnesses, form no better basis of recovery than the speculations
of the jury themselves." United States v. Griffith, Gornall & Carman, Inc., 210 F.2d 11,13 (10th
Cir.1954), quoting Central Coal & Coke Co. v. Hartman, 111 F. 96, 98 (8th Cir.1901).
Wirtz v. Kansas Farm Bureau Services, Inc., 311 F. Supp. 2d 1197,1218 (D. Kan. 2004). AIG makes the
same assertion regarding damages under Section 1981, citing to Gunby v. Pennsylvania Electric
Company 840 F. 2d 1108 (3rd Cir 1988) ("Courts have allowed recovery under Section 1981 for

23

emotional distress, but there must be sufficient evidence to support the award," citing to Erebia v.
Chrysler Plastic Products Corp., 772 F.2d 1250,1259 (6th Cir. 1985)).
Claimant responds to AIG's contention that his requested pecuniary damages are speculative,
citing to G.M. Brod & Co., Inc. v. U.S. Home Corp., 759 F.2d 1526, 1540-1541 (11th Cir. 1985), which
states:
Suffice it to say that "'while the damages may not be determined by mere speculation
or guess, it will be enough if the evidence show[s] the extent of the damages as a matter
of just and reasonable inference, although the result be only approximate1. The proof
may be indirect and it may include estimates based on assumptions, so long as the
assumptions rest on adequate data." Lehrman v. Gulf Oil Corporation, 500 F.2d at 668
(footnotes omitted) (citing Story Parchment Co. v. Paterson Parchment Co., 282 U.S.
555, 563, 51 S.Ct. 248, 250, 75 L.Ed. 544 (1931); Terrell v. Household Goods Carriers
Bureau, 494 F.2d 16, 24 (5th Cir.1974); Hobart Brothers Co. v. Malcom T. Gilliland, Inc.,
471 F.2d 894, 902 (5th Cir.1973); Locklin v. Day-Glo Color Corp., 429 F.2d 873, 879 (7th
Cir.1970), cert, denied, 400 U.S. 1020, 91 S.Ct. 584, 27 L.Ed.2d 632; Herman Schwabe,
Inc. v. United Shoe Machinery Corp., 297 F.2d 906 (2d Cir.1962), cert, denied, 369 U.S.
865, 82 S.Ct. 1031, 8 L.Ed.2d 85).
Proof of the amount of damage is less severe than the burden of proving the fact of
damage:
Very often the nature of the wrong makes ascertainment of the damages
difficult; but the Supreme Court has emphasized that "[i]n such [a] case,
while the damages may not be determined by mere speculation or guess,
it will be enough if the evidence show[s] the extent of the damages as a
matter of just and reasonable inference, although the result be only
approximate." Story Parchment Paper Co. v. Paterson Parchment Paper
Co., 1931, 282 U.S. 555, 563, 51 S.Ct. 248, 250, 75 L.Ed. 544, 548. "[Tjhe
jury may make a just and reasonable estimate of the damage based on
relevant'data...." In such circumstances "juries are allowed to act on
probable and inferential as well as [upon] direct and positive proof."
Bigelow v. RKO Pictures, Inc., 1946, 327 U.S. 251, 264, 66 S.Ct. 574, 580,
90 LEd. 652, 660.
Terrell v. Household Goods Carriers Bureau, 494 F.2d 16, 24 (5th Cir.1974). To the same
effect see Twyman v. Roell, 123 Fla. 2,166 So. 215 (1936)....
Claimant concedes he "cannot state definitely how much income he lost" as a result of Gallo's
implementation of a discriminatory SM promotion contest during which Gallo afforded Watson
substantial preferential treatment. The "lost income" damages Claimant seeks for claim #1 are SM

24

2011), the Eleventh Circuit described the "daunting obstacles under the law" to prove punitive
damages should be awarded, stating: A plaintiff seeking punitive damages against an employer for job discrimination
faces daunting obstacles under the law established by decisions of the Supreme Court
and this Court. "Punitive damages are disfavored by the law and are awarded solely to
punish defendants and deter future wrongdoing." Ferrill, 168 F.3d at 476 (quotation
marks omitted). "The Supreme Court has directed that, for the issue of punitive
damages to reach the jury in a section 1981 case, the plaintiff must come forward with
substantial evidence that the employer acted with actual malice or reckless indifference
to his federally protected rights." Miller v. Kenworth of Dothan, Inc., 277 F.3d 1269,
1280 (11th Cir.2002) (citing Kolstad v. Am. Dental Ass'n, 527 U.S. 526, 536-37, 119 S.Ct.
2118, 2125-26, 144 L.Ed.2d 494 (1999)) (emphasis added). "Malice means an intent to
harm and recklessness means serious disregard for the consequences of one's actions."
E.E.O.C. v. W & O, Inc., 213 F.3d 600, 611 (11th Cir.2000) (alteration and quotation
marks omitted).
"[Pjunitive damages will ordinarily not be assessed against employers with only
constructive knowledge of harassment." Miller, 277 F.3d at 1280 (quotation marks
omitted). Instead, punitive damages are available only if "the discriminating employee
was high up the corporate hierarchy or ... higher management countenanced or
approved his behavior." Id. (alteration and quotation marks omitted).
Moreover, "in the punitive damages context, an employer may not be vicariously
liable for the discriminatory employment decisions of managerial agents where these
decisions are contrary to the employer's good-faith efforts to comply with [§ 1981]."
Kolstad, 527 U.S. at 545,119 S.Ct. at 2129 (quotation marks omitted);ll see also Miller,
277 F.3d at 1280 ("[T]he Supreme Court has held that employers may assert a good faith
defense to vicarious liability for punitive damages where the employment decisions of
managerial agents ... are contrary to the employer's good-faith efforts to comply with
[§1981]." (quotation marks omitted)).
AIG did not specifically respond to Claimant's lengthy and detailed explanation of why he sought
punitive damages. AIG relied on the statement in its post-hearing brief asserting "vehement"
opposition to any award of damages.
Upon consideration of the entire record, the preponderance of the competent and substantial
evidence does not prove AIG's upper management (Benton, Parman and Luckett) knew about or
supported Gallo's discriminatory treatment of the black applicants, including Claimant, during the SM
promotion contest. While Gallo may have acted with reckless indifference to Claimant's Section 1981
and Title VII rights during the pretextual SM promotion contest, the record does not show upper
management did. Accordingly, punitive damages are not awarded.

26

wages. Claimant's admittedly speculative calculation is $215,095.20 for 216 weeks. This estimate or
snapshot of lost income is not grounded on reliable record facts.
After review of the entire record, and in consideration of the above-cited legal standards, it is
determined Claimant's evidence to support alleged lost income is speculative. However, there is
reliable record evidence upon which monetary relief could be awarded to remedy the discriminatory
SM promotion process. The weekly stipend AIG paid for the temporary performance of SM duties (by
Watson) while the promotion contest was ongoing is a specific indication of the value of the SM work
done then. AIG approved Gallo's request for approximately $500.00 a week for this purpose.
Claimant's prior experience managing AIG service agents for threejyears (2004-2007) demonstrates
he was capable of at least temporarily performing the SM work Watson did in 2012 while the
promotion contest was ongoing.
As stated above, AIG had an opportunity to remedy the discriminatory promotion process in
2013, but failed to do so. It is reasonable to infer AIG could have redone the SM promotion process,
this time in a nondiscriminatory manner, within a year from the time Claimant filed his EEOC charge
on February 13, 2013. Accordingly, to remedy the racially discriminatory treatment of Claimant, he is
awarded $500.00 a month from April 2, 2012 (when Carroll's SM resignation became effective and
the contest began) to December 31, 2013. This is a reasonable timeframe during which AIG could
have implemented a nondiscriminatory SM promotion process. The total award is $10,500.00 ($4,500
in 2012 and $6,000 in 2013).
Claimant relied on his own testimony to support an award of compensatory damages. This
testimony is vague in time and extent. It lacks a precise and detailed factual basis upon which to base
a monetary award. Accordingly, no compensatory damages are awarded.
Punitive Damages
Claimant seeks punitive damages for his racially discriminatory treatment during the SM
promotion

process.

To

be

awarded

punitive damages,

Claimant acknowledges he

must

present "substantial evidence that the employer acted with actual malice or reckless indifference to
his federally protected rights," citing to Miller v. Kenworth of Dothan, Inc., Til F.3d 1269,1280 (11th
Cir.2002) (citing Kolstad v. Am. Dental Ass'n, 527 U.S. 526, 536-37, 119 S.Ct. 2118, 2125-26, 144
L.Ed.2d 494 (1999)) (emphasis added). In Ash v. Tyson Foods, Inc., 664 F.3d 883, 900-901 (11th Cir.

25

Reasonable Attorney's Fee
Claimant seeks a reasonable attorney's fee. Ordinarily, a claimant who has prevailed on a
significant issue in a Section 1981 or Title VII case is granted this relief absent unusual circumstances.
Claimant prevailed on a significant claim, claim #1 (the discriminatory SM promotion process in 2012)
and won substantial damages. Accordingly, he is awarded a reasonable attorney's fee as to claim #1.
This amount of this fee must be support by detailed and contemporaneous records which justify
reasonable charges in this arbitration case. Claimant shall have thirty days to provide documentation
to support its requested amount of a fee award for claim #1, to which AIG may respond in thirty days.

Conclusion
Claimant proved by a preponderance of the reliable record evidence that he was subject to a
racially discriminatory SM promotion process in 2012 at AIG's Savannah office. This process violated
his Section 1981 and Title VII rights (claim #1). To remedy the violation of these rights, Claimant is
awarded $10,500.00 in damages. All other claims and damage requests are denied.
Claimant is also granted a reasonable attorney's fee for the time and costs of litigating claim
#1 during this arbitration process. This award must be supported by detailed and contemporaneous
records which justify a reasonable fee. The parties are encouraged to attempt to reach agreement on
the amount of the reasonable attorney's fee within sixty days from the date of this Decision and
Award. If agreement is not reached, their evidence and arguments will be resolved by the Arbitrator.

ARBITRATION AWARD
Claimant proved by a preponderance of the reliable record evidence that AIG violated Title
VII, 42 U.S.C. § 1981a et seq., and Section 1981, 42 U.S.C. § 1981a, by its racially discriminatory
promotion process for the service manager position at the Savannah office in 2012 (claim #1). To
remedy this violation of federal law, Claimant is awarded $10,500.00 in damages and a reasonable
attorney's fee. This fee is limited to the litigation of the discriminatory promotion claim before AAA.
All other claims and requested relief are denied.
This Award shall remain in full force and effect until such
time as a Final Award is rendered.
{' jy

.

cl t

/

'

Patricia A. Renovitch, Arbitrator, December 5, 2018

27

¥

•V
V

*

.V-

■<

f

■;v

APPENDIX E
)

.: t\

•’-i

■:

:

Case 4:17-cv-00117-LGW-CLR Document 22 Filed 02/20/19 Page 1 of 25

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF GEORGIA
SAVANNAH DIVISION
WILLIAM A. ANDERSON

)
)
)
)
)
)

Plaintiff,
vs.
AMERICAN GENERAL LIFE INSURANCE
d/b/a AIG LIFE AND RETIREMENT
Defendant,

v. w.
G SrC

4l ,

I

/A.

CIVIL ACTION NO: CV 417-117

)
)
)
)

PLAINTIFF’S MOTION TO VACATE ARBITRATION AWARD
TO THE HONORABLE JUDGE OF SAID COURT:
COMES NOW, WILLIAM ANDERSON, Plaintiff in the above case and files this
Motion to Vacate Arbitration Award respectfully shows the Court the following:
INTRODUCTION
Pursuant to Federal Arbitration Act 9.1J.S.C.§§ I0(a)(l)(2)(3)(4): O.C.GA 9-913(1)(2)(3)95), Plaintiff Hies this Motion to Vacate Arbitration Award. With a case filed before
the federal court in the Southern District of Georgia Savannah Division for employment
discrimination and retaliation. Plaintiff brought suit for the employer's violations of the Civil
Rights Act of 1964 for employment discrimination; 42 U.S.C. Section 1981 and Title VII for
employment discrimination and retaliation: and for employment discrimination on disability
violations under the Americans with Disability Act of 1990. After Plaintiff filed suit, the
Defendant answered suit by filing a Motion to Dismiss or in the Alternative, to Stay and Compel
Arbitration. The Court ruled in favor of Defendant and compelled Arbitration.

APPENDIX E

Case 4:17-cv-00117-LGW-CLR Document 22 Filed 02/20/19 Page 2 of 25

TABLE OF CONTENTS
Page
L

INTRODUCTION

.2

II.

FACTUAL & PROCEDURAL BACKGROUND,

9

III.

SCOPE OF JUDICIAL REVIEW OF ARBIRATION AWARDS

16

IV.

ARGUMENT,

17

A. The Arbitrator Refused to Hear Evidence Material to the Controversy,

,17

B. The Arbitrator showed partiality and misconduct when she failed to
honor the legal judicial procedural process of trial by not enforcing
motions and sanctions that unfairly aided AIG in its fraud by the act of
spoliation and therefore assisting in its defense against punitive datnages.....l9
C. The Arbitrator violated neutrality and showed partiality by
implementing a defense on behalf of the Defendant in her own words,
further showing manifest disregard for the law by ignoring law that
stated she was not free to reinterpret the parties” dispute and frame it
in his own terms....................................... ...........................................

.20

D. The Arbitrator Exceeded her authority, or so imperfectly executed them
that mutual, final, and definite award upon the subject matter was not
made. She further acted in an arbitrary and capricious manner and thus
committed a gross mistake in her award................................................... .21

V.

CONCLUSION,

,22

VI.

RELIEF REQUESTED.

.23

2

Case 4:17-cv-00117-LGW-CLR Document 22 Filed 02/20/19 Page 3 of 25

This Court compelled arbitration of this matter based on its ruling that the Defendant’s
Employment Dispute Resolution Program contract (“EDRP”) was not illusory. However, the
Court would allow an arbitrator to decide whether or not the Defendant breached its Employment
Dispute Resolution Program contract as claimed by the Plaintiff. The Court did not grant a stay
along with its ruling. Plaintiff appealed the ruling to the Eleventh Circuit Court of Appeals and
the Court subsequently upheld the lower court’s ruling. Because of an error in the
implementation of a stay, the Plaintiff was required to re-file the case and the federal court
allowed the case to be stayed until after the arbitration was complete (Exhibit 1 Refiled stay).
Plaintiff filed the necessary paperwork to initiate the arbitration process as instructed by the
Court.
Arbitrator Beverly Baker was appointed to the case on August 29,2017, Once
appointed, during a telephone management conference call on October 6,2017, the arbitrator
refused to hear evidence pertinent and material to the controversy and made an arbitrary ruling
on signi ficant issues 5-7 of Claimant’s Arbitration case that no breach occurred and she was
going to hear the case:
(5) for breach of contract for Defendant’s failure and refusal to follow the provision entitled
“open door policy” as set forth in Defendant’s arbitration clause and the Employee Dispute
Resolution Program (“EDR program”); and/or in the alternative;
(6) to void the alleged arbitration contract because it lacks consideration as set forth in said
alleged arbitration contract; and it cannot be severed or saved because the alleged arbitration
contract consists of a single indivisible promise by Defendant to honor the terms of the EDR
Program as consideration for giving up Plaintiffs rights to litigate his claims in a court of law;
(7) For a determination that the alleged arbitration contract is not mandatory and/or enforceable
as set forth in the EDR program and therefore this arbitration should be dismissed so that
Plaintiff can pursue his Section 1981 and State law claims in federal court.

3

Case 4:17-cv-00117-LGW-CLR Document 22 Filed 02/20/19 Page 4 of 25

This refusal to hear evidence was documented with witnesses, one of whom was a
representative from the American Arbitration Association (AAA) and put on record with the
AAA as it occurred during a telephone management conference call (See attached Memorandum
of Record/Statement of Facts (“MFR/SOF”) submitted to the AAA. (Exhibit 2 ). Counsel for the
Claimant stated on two separate occasions to the arbitrator that she was making a ruling on die
case without allowing us to present any of our evidence; Arbitrator Baker replied on both
occasions that she did not need to see any of our evidence. This was in violation of Tide 9 U.S.
Code, Section 10(a)(3).
Counsel for the Claimant then asked Arbitrator Baker did she even read the employee
contract that our case involved; Arbitrator Baker replied that she had not. When counsel for the
Claimant inquired as how the decision was made without hearing evidence or reading the
employment contract, Arbitrator Beverly Baker mentioned reading some kind of documents she
received and stated something to the feet that an arbitration agreement was not breachable.
Arbitration agreements are bound by simple contract law, therefore this assertion flies in the face
of contract law. A contract that has terms, conditions, and acceptance standards cannot be
determined unbreachable without being read. That statement can only be true if histoiy shows
that every company’s arbitration agreement is identical and no arbitration agreement has ever
been found to be breached by either side. Szuts v. Dean Witter Reynolds, Inc., 931 F.2d 830 (11 th
Cir., 1991). Counsel for the Claimant also argued several times to the arbitrator that she was
making a ruling without the court reporter present and it should be recorded in writing. The
arbitrator disagreed until Ms. Jara of the AAA came off of mute and instructed the arbitrator to
send a written order to the AAA. Arbitrator Baker submitted that order several months later on

4

Case 4:17-cv-00117-LGW-CLR Document 22 Filed 02/20/19 Page 5 of 25

January 23,2018 containing what Claimant deems an attempt to cover up her judicial
misconduct. (Exhibit 3)
Defendant’s response to the MFR/SOF filed with the AAA did not refute the Arbitrator’s
refusal to hear evidence or most of die other issues documented. It only addressed one statement
concerning Arbitrator Baker’s comment that she had “spent half her career on the side of big
business / corporate America.” and went on to suggest Claimant was trying to strike Ms. Baker
as an Arbitrator (Exhibit 4 Defendant Email). This was false as Claimant had only submitted
the MFR/SOF to document unrecorded and extremely significant facts.
On March 28,2018, with several motions to compel Defendant AIG to cooperate with the
spirit of the arbitration procedure concerning discovery still unresolved, Arbitrator Beverly
Baker recused herself.
On April 11,2018, Arbitrator Patricia Renovitch was assigned to replace Arbitrator
Beverly Baker. Counsel for the Claimant immediately afforded the new arbitrator the
opportunity to correct the judicial misconduct of the first arbitrator and allow us to present to our
evidence so that we would not once again be denied due process and receive a fair hearing.
Arbitrator Renoviteh’s response was to state that she would not revisit jurisdictional issues
decided by the first arbitrator. By refusing to hear evidence pertinent and material to our
controversy, Arbitrator Renovitch also became guilty of misconduct (See attached email stream
Exhibit 5 ). The right to have the case judged by evidence was a right Claimant did not wave.
Despite Defendant AIG’s response to the Claimant’s request to the second Arbitrator
concerning the hearing of evidence with an assertion that Claimant has been arguing
jurisdictional issues stemming from the Federal Court and subsequently from the Eleventh
5

Case 4:17-cv-00117-LGW-CLR Document 22 Filed 02/20/19 Page 6 of 25

Circuit Court of Appeals, that is not the case, (email stream Exhibit 5). Both Courts found the
contract not to be illusory, but as contract law states, only a valid contract can be breached.
Once the contract was found not to be illusory, Claimant succumbed to the ruling ordering the
case to be brought before arbitration with the hill understanding that if the Arbitrator found the
valid EDRP arbitration contract in breach, Claimant would be allowed to continue its case within
the jurisdiction of the federal court. Hie arbitrators violated judicial protocol by refusing to hear
evidence when given three opportunities to do so. These refusals denied the Claimant a fair
hearing and under Title 9 U.S. Code, Section 10(a)(3) are considered misconduct by the
arbitrator.
In addition, Arbitrator Renovitch asserted a defense which Defendant never pled. This
defense allowed the Defendant to avoid punitive damages and was a clear overstepping of
Arbitrator Renovitch’s authority and violation of her agreement for neutrality in ruling by
preponderance of evidence.
On September 5,2018 during the opening day of trial, the standard or proof was agreed
upon by all to be preponderance of the evidence. Defendant then asked the Court (Arbitrator
Renovitch) to allow an exceedingly light burden of showing that they had a nondiscriminatory
reason for their conduct. Arbitrator Renovitch rejected his request and stated that she was going
to interpret exceedingly light as preponderance of evidence, which is 50 percent plus a very
small amount (Exhibit 6, Tr p. 6:23-25; p. 7:1-25; pg. 8:1-25). This statement constituted a
contract of agreement that fee Court was bound by. As previously stated by fee Eleventh Circuit,
“an arbitrator is not free to reinterpret fee parties’ dispute and frame it in his own terms.” lnt‘l
Bhd ofElec. Workers v. Verizon Fla., LLC, 803 F.3d 1241 (11th Cir., 2015). Claimant will show
that he relied on feat agreement to his detriment.
6

Case 4:17-cv-00117-LGW-CLR Document 22 Filed 02/20/19 Page 7 of 25

Arbitrator Renovitch not only violated her contractual agreement by deciding her award
in a way contrary to the terms of that agreement leading to partiality, but ignored physical
evidence and testimony and based the decision of one claim primarily on a false evidence fact
that was not presented during the entire trial by either side, therefore, tipping the scale based on
preponderance of evidence in favor of the Defendant in violation of 9 U.S. Code (10)(a)(2).
This false evidence was also addressed in a timely matter prior to the granting of the final award
and could have easily been addressed by the Arbitrator if she had wanted to be truly neutral and
unbiased. (Exhibit 9, RFR p. 3: para 3, p. 4: para 1):
“Further, Claimant respectfully addresses that Rick Pickett was erroneously identified as
having collected the service agent position #24 in May 2012 when Roy Watson was given the
trial manager position. There is absolutely no mention of Rick Pickett servicing Agency #24
during the month of May 2012 in any deposition or trial testimony from either side. However, it
appears that the Arbitrator based her interim decision primarily on this concept not present
during the trial or via depositions. The actual pay statements provided by AIG clearly identify
that Rick Pickett did not work or receive payment on that position until after 13 August 2012; a
full week after claimant was identified as fully qualified to assume the position permanently. In
Mr. Gallo’s deposition answers concerning the vacation of claimant, Gallo used the term, “I
think; Pm assuming; I believe,” even at one time saying “No, Okay” to claimant okaying Rick
Pickett collecting on agency #24. [Gallo depo. p. 110:22-24; p. 111:1-24; p. 112:1-8].
Claimant’s testimony was clem*: he testified that he mentioned his desire to go on vacation to Mr.
Gallo well after the discriminatory move had already been made.[Tr. p. 162:12-25] It is
understandable that the misunderstanding about the white male collecting the position in May of
2012, when Roy became a trial manager, can give the appearance that he was rewarded the
position temporarily for working hard on it prior to August 2012, however, physical evidence
and testimony from both sides clearly prove that was not the case.”
(Gallo deposition at Exhibit 10)
Arbitrator Renovitch refused to relinquish her position. It is Claimant’s assertion that this
is an example of overstepping her authority and showing of partiality when she refused to avail
herselfof the opportunity to correct such an obvious mistake as her Final Award had not yet
been panted. Arbitrator Renovitch once again aided AIG with undocumented evidence to
7

Case 4:17-cv-00117-LGW-CLR Document 22 Filed 02/20/19 Page 8 of 25

render her conclusion and rule against Claimant in violation of her agreement to be neutral as
well as her contractual agreement to rule by preponderance of evidence as all other evidence
outweighed the one false assertion and this created a bias to the detriment of the Claimant
(OCGA 9-9-13(b)(1),(2) and (3».
Arbitrator Renovitch also exceeded her authority, displayed partiality and manifestly
disregarded the law when she implemented a defense on behalf of the Defendant that they did
not request, in order to avoid awarding punitive damages to the detriment of the Claimant 9 U.S.
Code (10)(4) and O.C.GA 9-9-13 (2)(3)(5). The Arbitrator had plenty of time to consider her
decision as this violation was also pointed out to her prior to the Final Award being granted. The
law was clearly defined and the Arbitrator refused to heed the legal principle and in fact ignored
Claimant’s request by giving virtually no response at all. This once again shows an
overwhelming move to grant partiality and favor to die Defendant. (RFR p. 6: para 2-4)
“This reconsideration is requested because the Arbitrator acknowledges that she has
made a determination, which has not been argued by the Respondent, to-wit: “AIG did not
specifically respond to Claimant’s lengthy and detailed explanation of why he sought punitive
damages". An arbitrator is ‘not free to reinterpret the parties’ dispute and frame it in his own
terms.’
Int’l Bhd. Of Elec. Workers. Local Union 824 v. Verizon Fla.. LLC. 803 F.3d 1241,1246
(ll^Cir. 2015).
Claimant reiterates that AIG’s failure and refusal to respond to Claimant’s request for
punitive damages demonstrates that it knew or should have known that it manipulated the contest
and refused to acknowledge or admit the evidence of its senior management’s manipulation. As
the case law indicates, and as the Arbitrator cited, Respondent had a good faith defense to
Claimant's punitive damages claim, which put AIG on notice from the filing of the arbitration
demand. However, Respondent’s failure to even assert, at a minimum, the good faith defense is
fatal. Yet, the Arbitrator has afforded Respondent a defense that AIG has neither argued nor put
forth at any time during this matter; not in its Answer, not on its dispositive motion on summary
judgment, not in evidence during the hearing, and not in its closing argument.”

8

Case 4:17-cv-00117-LGW-CLR Document 22 Filed 02/20/19 Page 9 of 25

(Exhibit 11, Interim Award p. 25, para 2).
Accordingly, Claimant was unsuccessful in part in Arbitration. Although the Arbitrator
ruled in his favor on the major issue, the Arbitrator failed to award punitive damages.
Arbitrator Renovitch failed to enforce judicial standards that would have allowed
Claimant to properly discover and expose Regional Vice President Curtis Benton’s knowledge of
contest manipulation. This again aided AIG in its position not to be held accountable via punitive
damages.
Finally, that Arbitrator Renoviteh’s decision was so unfair as to be manifestly
unreasonable. Arbitrator determined the $10,500 monetary award for Claimant by using
speculative dates, including a time frame in which Claimant had already left the company to
award $500 per week when the white comparator made hundreds of thousands of dollars in the
position obtained by discrimination from a nearly 500 Billion dollar organization. Claimants
personal and financial losses so greatly outweighed Arbitrator Renovitch’s capricious reasoning
as to be manifestly unreasonable and unjust

FACTUAL & PROCEDURAL BACKGROUND
A brief recasting of the factual and procedural background of this case will aid in putting
the basis for this motion in context
The American Arbitration Association appointed the 2nd Arbitrator, Patricia Renovitch on
April 11,2018. An arbitration hearing was conducted September 5 -7,2018 in Savannah,
Georgia. Of the claims submitted to arbitration, these three claims were ultimately decided to be
addressed during the trial:

9

Case 4:17-cv-00117-LGW-CLR Document 22 Filed 02/20/19 Page 10 of 25

(1) for claims pursuant to his EEOC charge for violations of TITLE VII of the Civil Rights Act
of 1964, as amended in 1991,42 U.S.C. 2000e et seq. for failure to promote because of race,
Black, and for adversely affecting the terms and conditions of employment of Plaintiff because
of his race, mid promoting a white male, Roy Watson;
(3) for Defendant’s violations pursuant to 42 U.S.C. §1981 for failure and refusal to afford
Plaintiff the same right to make and enforce his employment contract and secure a promotion
and income as was enjoyed by a similarly situated white male, Roy Watson and others because
of Plaintiff’s race, Black.
(4) For claims for Defendant’s illegal retaliation in violation of Title VII, against the Plaintiff for
engaging in protected activity in complaining about the racial discrimination.
These claims were adjusted to read:
claim #1: whether AIG discriminated against Claimant, a black male, in the summer of
2012 by failing to promote him to a vacated service manager position in violation of Title
VII of the Civil Rights Act of 1964,42 U.S.C. 2000e et seq., and Section 1981,42 U.S.C.
§ 1981;
claim #2: whether AIG discriminated against Claimant in 2012 by not allowing him to
temporarily collect premiums on vacated service agency 24 in violation of 42 U.S.C.
§1981, and Section 1981,42 U.S.C. § 1981; and
claim #3: whether AIG retaliated against Claimant in violation of Title VII and Section
1981, by delaying the return of his sales agency book after he engaged in concerted
protected activities, including the filing of an EEOC charge in February 2013.Prior to the
arbitration hearing and within the afforded time frame, Counsel for the claimant filed
interrogatories and discovery motions served on the defendant, AIG.
Claimant prevailed on the most substantial claim #1 concerning racial discrimination
violating Section 1981 and Title VII for foiling to promote to the Service Manger Position, but
Claimant was not properly made whole by the arbitration process.
Prior to the arbitration hearing and within the afforded time frame, Counsel for the
Claimant filed interrogatories and discovery motions served on the defendant, AIG.
Claimant requested the contact information on Regional Vice President Curtis Benton
only to discover that AIG intentionally provided incorrect information. When compelled by
10

Case 4:17-cv-00117-LGW-CLR Document 22 Fiied 02/20/19 Page 11 of 25

Claimant’s attorney to provide correct information, Counsel for the defendant claimed that they
did not have it (Exhibit 12 p. 4). However, AIG later submitted an affidavit from Curtis Benton
in support of its dispositive motion indicating that they indeed had his contact information, but
did not provide it to Claimant as required. Shortly after that on 18 May, 2018, AIG did produce
the contact information for contacting Mr. Benton through his attorney only (Exhibit 13 ).
Throughout the arbitration procedure, Claimant submitted several motions to compel
discovery of interrogatories answers and document production, both the former and current
arbitrator and AIG failed to honor the spirit of those judicial demands. Ultimately, parties
resolved the basic discovery issues under the second arbitrator. However, Claimant invoked a
spoliation claim against Defendant for first refosing to produce and subsequently claiming they
no longer had an extremely important report that would have clearly identified who, what, when,
and how the contest numbers were being manipulated (Exhibit 17, #14). Claimant accused AIG
of manipulating those contest numbers from the start of this case. Claimant pled to Arbitrator
Renovitch on four separate occasions a request for spoliations, first during our response to AIG’s
dispositive motion (Exhibit 14, p. 18-19, secondly during the trial (Exhibit 6, p. 117:10-25, p.
118:1-21), thirdly during the closing briefs (Exhibit 15, p. 25-27), and fourthly during the
timely filed Request for Reconsideration (“RFR”), (Exhibit 9, p. 5: para 2), submitted prior to the
granting of the Final Award.
In the Interim award there was no mention of our spoliation request and the arbitrator
seemed to confuse two entirely different document reports. Claimant explained in the RFR the
seemingly confusion and reasserted the extreme importance of the destroyed evidence and how
the Arbitrator by misunderstanding the difference could have inadvertently aided the Defendant,

11

Case 4:17-cv-00117-LGW-CLR Document 22 Filed 02/20/19 Page 12 of 25

AIG in avoiding punitive damages and pleaded with her to consider our spoliation request.
(Exhibit 9, RFR: p. 5: para 2; p. 6: para 1).
‘AIG first refused to produce, then answered they no longer maintained a document
paramount to this case. The interim award brief seems to confuse the New Business Pending
Reports with the Agent Compensation Reports (R600s). Claimant testified to the extreme
significance of that New Business document during the trial and requested spoliation; however,
the Arbitrator gave no attention to it [Tr. p. 117:19-25, p. 118:1-22]. This is extremely
important in that the R600’s showed the final NFYP (i.e. 350 NFYP & 93% RPR), but the New
. Business Pending Reports that AIG failed to preserve would have shown details per policy
submitted to the home office and the remarks section reflects exactly who, what, when, and how
the NFYP number manipulations would have occurred towards the controlling of the NFYP.
Claimant again requests granting consideration of its Spoliation request due to AIGs disposal of
New Business Pending Reports that would have proven whether or not upper management,
specifically Curtis Benton in this case, manipulated not only the white competitor, but also the
black competitors’ numbers. Do to the failing to produce, then failing to preserve evidence by
AIG that could have clearly given the Arbitrator answers, it can be understood how the
Arbitrator’s interim ruling could have inadvertently aided AIG in its relief from punitive
damages.'
At no point of the arbitration process did Arbitrator Renovitch acknowledge Claimant’s
spoliation request. Arbitrator Renovitch completely ignored the spoliation request addressing
AIGs disposal of new business reports that would have proved upper management manipulated
white competitor’s numbers. AIG claimed that they no longer had those reports although they
were the focal point of the contest numbers from the on start of this case. Arbitrator Renovitch
once again aided AlG’s position by refusing to acknowledge or address the request for spoliation
against AIG. Arbitrator Renovitch’s actions aided AIG in preventing the discovery of Senior
Management involvement In negating her contractual agreement to rule based upon
preponderance of evidence, Arbitrator Renovitch also ignored physical evidence and testimony
that indicated upper management Curtis Benton’s, involvement in contest number manipulation
(Exhibit 10, Gallo dep. pp. 71-72 and email at Exhibit 16). Three witnesses, Diane Hardwick,
Wonda Gibson, and Dale Morris testified as to how only upper management specifically
12

Case 4:17-cv-00117-LGW-CLR Document 22 Filed 02/20/19 Page 13 of 25

Regional Vice President Curtis Benton, could order the manipulation of the comparators’
numbers at that level. AIG put up no defense whatsoever for the spoliation or participation of
Curtis Benton. (Exhibit 9, RFR pg 1, para 2; pg 2, para 2 and Exhibit 7, Trial):
“Hardwick testimony indicated that Gallo, Watson, and Benson worked together on at
least one occasion to push business through to benefit Watson during the contest When agents
write business, it is sent for approval to the home office where underwriting reviews and
approves the business and it becomes issued and reflected as net sales or denied. Only a general
manager like Gallo could call or cause the administrative staff to contact underwriting aid find
out information about why or when business pending would be approved. [Tr. p. 320:10-19].
However, only a Regional level manager like Benton can get underwriting to push the business
through quicker. [Tr. p. 320:20-25, p. 321:1-2].
Gallo asked Hardwick to fax a request to push through business for Watson during the
contest. JTr. p. 323:1-11]. Hardwick testified: “Now, I do recall an occasion...he [Watson] had
this big policy that he needed to be issued, pushed through in order for him to meet his goal. So,
Mr. Gallo had me to fax it to the home office. That way it will go to underwriting quicker
because we had a special number-fax number that we could send business through to
underwriting. And when they got it, I know that he [Gallo] called Mr. Benton, and when it gets
to underwriting, to call him and see if he [Benton] can get it pushed through, see what was the
holdup so [sic] that he could go ahead and push the business through.” [Tr p. 331:17-25, p.332:l8]. Wonda Gibson’s testimony of hearing the Regional manager saying how he’d be up there
and “he’s” going to hit the button to get it [new business] pushed through [tr. p. 361:1-3]. Dale
Morris’ trail testimony of a former RVP named Ron Callahan, who would often manipulate
business by pushing it through or delaying its issue. [Tr. p 387:11-14, p 388:1-4]”
(Exhibit 7, Trial)
For claim number two, Rick Pickett was erroneously and falsely identified as having
collected the service agent position #24 in May, 2012 by counsel for AIG, that evidence and
testimony was not presented during the entire proceeding, however the arbitrator based her
decision primarily on tins concept not presented by either physical evidence or testimony during
the trial or via depositions. The actual pay statements clearly identify that Rick Pickett did not
work or receive payment on that position until August, 2012. There is absolutely no mention of
Rick Pickett servicing Agency #24 during die months of May thru July, 2012 in any deposition
13

Case 4:17-cv-00117-LGW-CLR Document 22 Filed 02/20/19 Page 14 of 25

or trial testimony, therefore there can be no record to show. All parties from both sides testified
that Rick Pickett collected agency #24 in August of 2012 only. This fact was timely revealed to
the Arbitrator prior to the issue of her final award and Claimant stated in the RFR that it could be
understood how that misunderstanding concerning false evidence could lead her to the
conclusion that AIG had a nondiscriminatory reason for the discriminatory action AIG made
concerning the placement of a white male temporarily in a position promised permanently to the
black male, blocking that black male from assuming the position permanently.
For claim number three, concerning the transfer of personal business to service agency
#24 and its delayed return to agency #79. This personal business was less than 25% of
Claimant’s agency #79. Personal business represents the agent’s family, personal friends, fellow
church members, and other such close personal relations. Non-collectible business is client
accounts that are paid by bank draft or mailing payments directly to the Home Office.
Collectible business is client accounts that are paid by mailing payments directly to a local agent
or physically collected payments by a local agent
Evidence and testimony clearly indicate that Claimant only transferred his personal
business from Agency #79 to Agency #24. (Exhibit 9, RFR p. 4: para 2; p. 5: para 1):
“It should also be noted that collectable business being a reason for the return delay was
not mentioned by AIG during its deposition interviews with its witnesses Thomas Gallo and Roy
Watson, with Claimant, or in its request for dispositive motion on summary judgment Evidence
and testimony indicate that claimant only transferred a portion that was his personal business
from Agency #79 to Agency #24 and not his entire book of business. Claimant’s book of
business was over $230,000 of non-collectible business and contained only a minuscule amount
of ($1200) collectable business that was non-personal. Diane Hardwick testified that claimant
had collectible business on his agency and that was correct; however, when pressed by AIG, she
clearly stated several times that she could not verify that claimant had transferred the small
amount of collectible, but only wanted his personal business retumed.[Tr. p. 335:1-5, p. 336:1724]. Claimant testified that only his personal business, which was all non-collectible, was
14

Case 4:17-cv-00117-LGW-CLR Document 22 Filed 02/20/19 Page 15 of 25

requested to be transferred back to him and documented Policy Registers verified such [Tr. p.
434:18-25, p. 435:1-10]. Physical evidence also proves that the return was not conducted until
after a retaliation claim was filed to EEOC and Thomas Gallo lied under oath about knowing of
the EEOC filing during that time. Although asked, AIG failed to provide any type of written
policy or correspondence concerning collectable business, but wants to rely only upon Deborah
Carter, who works in licensing and commissions and whose job description on the record does
not cover policy registers. In Ms. Carter’s brief testimony, she claimed familiarity with policy
registers only. Counsel for the defendant asked her 3 quick questions: (1) had she reviewed
claimant’s policy register, (2) did the transfer have collectible on it, (3) would the transfer back
therefore have collectible on it? (not did ft have collectible on ft). Ms. Carter answered yes to all
three questions; however, AIG moved on in questioning and did nothing to corroborate its last
minute, added on defense [Tr p. 480:1-10]. However, Ms. Daphne Luckett only called it a
strategy and was careful to say “if* collectible business was included it could cause a long delay.
[Tr. p. 505:13-15]. Claimant humbly suggests that Deborah Carter’s statement alone did not
provide a non-discriminatoiy reason for AIG’s retaliatory behavior.
(Exhibit 8, Trial)
Once again, this was less than 25% of Agency #79’s book of business worth over
$230,000 with only a minuscule amount of ($1,200) worth of collectable business on it and that
business was non-personal. Claimant prepared the transfer and Diane Hardwick performed the
transfer, both testified that only Claimant’s personal business which was all non-collectible was
transferred and documented Policy Registers verified such.”
Arbitrator Renovitch accepted AIG’s verbal claim from a company employee, Debbie
Carter that never saw or handled the transfer that the entire business block was transferred, to
include the ($1,200) worth of collectible business despite evidence to the contrary. Arbitrator
Renovitch ruled against the Claimant on his retaliation claim based solely on AIG’s
undocumented verbal claim that the ($1,200) collectible business needed some kind of special
handling in order to be returned to Claimant and therefore justified AIG not returning Claimants
personal business. Documented physical evidence showed that the return was not done until
after Claimant filed a retaliation claim with the EEOC. AIG had admitted in its interrogatory
15

Case 4:17-cv-00117-LGW-CLR Document 22 Filed 02/20/19 Page 16 of 25

answer that no such policy concerning collectible business transferred existed (Exhibit, Tr, p.
519:18-23) and only testified verbally that they adopted a strategy. Senior management Daphne
Luckett was untruthful in an email stating that Claimant was unqualified to assume the service
agent in die third quarter of 2012 because of being color coded blue. (Exhibit 8, Tr. P. 500: 7-9)
When faced by counsel for Claimant with the Claimant’s actual personnel reports, Daphne
Luckett was forced to recant week by week the entire third quarter of 2012 as Claimant not color
coded blue, but a qualified color code of yellow (Exhibit 8, p. 511:11 thrup. 514:16). This
untruthfiilness and bad faith behavior of senior management was overlooked by Arbitrator
Renovitch. Again, Arbitrator Renovitch violated the agreement to rule by preponderance of
evidence and aided AIG with undocumented evidence against documented evidence to render
her conclusion with an exceeding light burden for a nondiscriminatory reason, especially a
reason that was undocumented, uncorroborated, and not mentioned during any part of the
arbitration process until mentioned by Debbie Carter.
SCOPE OF JUDICIAL REVIEW OF ARBITRATION AWARDS
The Federal Arbitration Act (FAA) has placed strong limits on judicial review of
arbitration awards. In fact, courts will not overturn or vacate an arbitrator’s award unless the
arbitrator has violated a provision under Section 10a of the FAA. Accordingly, under the FAA
Section 10a an arbitrator’s award can be vacated under the following circumstances:
(aXl)> is where the award was procured by corruption, fraud, or undue means.
(aX2) where there was evident partiality or corruption in any arbitrator.
(a)(3) where the arbitrators were guilty of misconduct in refusing to postpone the hearing
despite a party’s showing of sufficient cause to postpone or refusal to hear evidence pertinent;
16

Case 4:17-cv-00117-LGW-CLR Document 22 Filed 02/20/19 Page 17 of 25

and material to the controversy; or of any other misbehavior by which the rights of any party
have been prejudiced.
(a)(4) where the arbitrators exceeded their powers, or so imperfectly executed them that a
mutual, final, and definite award upon the submitted subject matter was not made.
ARGUMENT
Claimant understands that it not within the Courts jurisdiction to revisit merits in any
fashion once they were ruled upon by the Arbitrator, particularly in the Final Award. Claimant is
not asking the Courts to revisit the merits, but to determine based upon the Arbitrator’s binding
agreement to be neutral and the agreed upon standard of preponderance of evidence, that the
overwhelming spirit of the arbitration hearing has been tainted with bias, misconduct,
overstepping of authority and partiality to the favor of the Defendant and to the detriment of the
Claimant in violation of statutory grounds for vacating an Arbitration award via Federal
Arbitration Act 9.U.S.C.§ 10(a)(2)(3)(4); and supported by O.C.GA § 9-9-13(l)(2)(3)(5),
A. The Arbitrator Refused to Hear Evidence Material to the Controversy
FAA 9 U.S.C. § 10(a)(3), provides that the Court can vacate the award if the arbitrator
“refused to hear evidence material to the case”
Arbitrator Beverly Baker was appointed to the case on August 29,2017. Once appointed,
during a telephone management conference call on October 6,2017, the arbitrator refused to hear
evidence pertinent and material to the controversy and made an arbitrary ruling on significant
issues 5-7 of Claimant’s Arbitration case that no breach occurred and she was going to hear the
case and stated when questioned on two occasions that she did not have to hear any evidence.
17

Case 4:17-cv-00117-LGW-CLR Document 22 Filed 02/20/19 Page 18 of 25

Later Arbitrator Baker recused herself and Arbitrator Patricia Renovitch was appointed as
her replacement Counsel for Claimant asked Arbitrator Renovitch to allow us to present
evidence on our claims as Arbitrator Baker had refused to allow us too. Arbitrator Renovitch
1

declined to revisit Arbitrator’s Baker’s ruling and refused to hear Claimants evidence also.
Neither arbitrator can claim a defense that Claimant’s evidence was not pertinent or
material because they did not review any of it, nor did either read the actual arbitration
agreement. Nor, can AIG claim that the evidence we wanted to present was not pertinent or
material. In protest of Claimant wanting to present evidence for the breach, AIG tried to
anticipate what our argument presented and never saw or heard what Claimant actually intended
to present
For the claims concerning the breach, evidence presented by Claimant would have
included upper management knowledge of the contest manipulations. Claimant made every
effort to avail himself of the company policy, Claimant was turned down at every attempt to
discuss his complaint with the senior personnel involving both the Service Manager and Service
Agent positions (Tr. p. 172). There were witnesses Claimant wanted to produce who were party
to conversations and had information concerning what senior management said and did regarding
the contest and job positions Claimant wanted to address by utilizing the open-door policy.
Both arbitrators could have simply allowed Claimant to present their physical evidence and
produce our witnesses at the beginning of the hearing concerning the breach, documented the
senior management awareness and proceeded on with the trial if either found the evidence
immaterial concerning the breach. Claimant would have had the testimony on record about
upper management’s awareness and condoning of the discriminatory practices that took place.

18

Case 4:17-cv-00117-LGW-CLR Document 22 Filed 02/20/19 Page 19 of 25

Again, the Arbitrator could have made a quick ruling as to its pertinence and moved on,
therefore upholding the law by giving the Claimant fair judicial process. The trial date was
eventually set for three days, September 5-7,2018.
At the time of the Arbitrator’s misconduct concerning hearing of evidence, there was no
way the Claimant could have predicted AIG’s refusals and delays to provide senior management
contact information as well as delays, refusals, and spoliation of company reports to deter
discovery ofjust how far up the chain the discrimination practice flowed. The failure to allow us
to present this evidence at the onset of the arbitration process which exposed senior
management’s knowledge of the discrimination proved to be critically detrimental to the
Claimant’s right to have due process and a fair hearing
B. The Arbitrator showed partiality and misconduct when she foiled to honor the legal judicial
procedural process of trial by not enforcing motions and sanctions that unfairly aided AIG in its
fraud by the act of spoliation and therefore assisting in its defense against punitive damages:
FAA 9 U.S.C. § 10(a)(l)(3), provides that the Court can vacate the award of the arbitrator
“where there was evident partiality or corruption in any arbitrator”, “or of any other misbehavior
by which their rights of any party have been prejudiced)
"Spoliation” refers to "the destruction or significant alteration of evidence, or the failure
to preserve property for another’s use as evidence in pending or reasonably foreseeable litigation.
Pinkney v. Winn-Dixie Stores, Inc. (S.D. Ga., 2015)
Claimant cites the doctrine of continuity to prove spoliation “which states that evidence
proven to exist is presumed to continue to exist until the occurrence of some intervening act—
and reasons that the [reports] would not have ceased to exist without some intervening,
29

Case 4:17-cv-00117-LGW-CLR Document 22 Filed 02/20/19 Page 20 of 25

purposeful act of Defendant to destroy the evidence.” Pinkney v. Winn-Dixie Stores, Inc. (S.D.
Ga., 2015)
For the Court to impose spoliation sanctions, Claimant must prove (1) the spoliation has
prejudiced Claimant; (2) this prejudice cannot be cured; (3) the reports are highly probative; and
(4) Defendant acted in bad faith, based on circumstantial evidence. Pinkney v. Winn-Dixie
Stores, Inc. (S.D. Ga., 2015). Claimant asserts that this has been proven and ignored by the
Arbitrator, thereby giving unfair advantage to the Defendant Thus, the Arbitration award must
be vacated.
Issues and causes raised by Claimant were ignored by the arbitrator. Accordingly, the
arbitrator failed to exercise honest judgment and the arbitrary and capricious award should be
vacated. FAA9.U.S.C.§ 10(aX2)(3).
C. The Arbitrator violated neutrality and showed partiality by implementing a defense on behalf
of the Defendant in her own words, further showing manifest disregard for the law by ignoring
law that stated she was not free to reinterpret the parties” dispute and frame it in his own terms.
FAA 9.U.S.C.§ 10(a)(lX2)(3)(4); O.C.GA § 9-9-!3(l)(2)(3X5),
Arbitrator Renoviteh asserted a defense which Defendant never pled. This is a clear
overstepping of her authority because “[t]he power and authority of the arbitratorQ in an
arbitration proceeding is dependent on the provisions of the arbitration agreement under which
the arbitrators!} were appointed. Szuts v. Dean Witter Reynolds, Inc., 931 F.2d 830 (11th Cir.,
1991). “An arbitrator is not free to reinterpret the parties’ dispute and frame it in his own terms.”
Inti Bhd. ofElec. Workers v. Verizon Fla., LLC, 803 F.3d 1241 (11th Cir., 2015). By asserting
this defense on Defendant’s behalfj Arbitrator Renoviteh was reinterpreting the terms of the
20

Case 4:17-cv-00117-LGW-CLR Document 22 Filed 02/20/19 Page 21 of 25

arbitration agreement A good faith defense cannot be awarded to the Defendant when evidence
ignored by die Arbitrator clearly shows that senior management was steeped in avoidance to
include withholding evidence. Good faith is both a company policy and company actions. The
Arbitrator pointed out in her own words on page 22 of her Interim award that AIG made no
attempt to rectify any of the discriminatory practices that were brought to their attention (Exhibit
11, Interim Award p. 22, para 4). AIG refused to address any of these matters in good faith. For
the contractual agreement entered in by Arbitrator Renovitch to rule by preponderance of
evidence, Claimant asserts that we provided multiple testimonial witnesses and documented
written evidence concerning senior management involvement or denial. AIG provided zero
testimony or evidence to their defense, let alone good faith efforts.
D. The Arbitrator Exceeded her authority, or so imperfectly executed them that mutual, final,
and definite award upon the subject matter was not made. She further Acted in an Arbitrary and
Capricious Manner and thus Committed a Gross Mistake in her Award.
Arbitrator Renovitch contractually agreed with all parties to rule by preponderance of
evidence. However, Arbitrator Renovitch changed this position during her Final Award
determination therefore creating a prejudice to the detriment of the Claimant and favor of the
Defendant Arbitrator Renovitch was made aware of false evidence being utilized prior to her
Final rating, but refused to relinquish her position of using it to the detriment of the Claimant
Based on the forgoing, the award in question was obtained by undue and unfair means
and should be vacated. On its face, the arbitrator’s award demonstrates a failure to exercise
honest, unbiased judgment and as such constitutes a gross mistake and so unfair as to be
manifestly unreasonable.

21

Case 4:17-cv-00117-LGW-CLR Document 22 Fiied 02/20/19 Page 22 of 25

The Arbitrator found AIG guilty of discriminatorily promoting a white male into a
position over three blacks of which he earned hundreds and hundreds of thousands of dollars, yet
only awarded the winning Claimant $10,500 from a company with a net worth of nearly $500
Billion dollars. The Claimant spent out of pocket over $21,000 in retainer fees, disposition fees,
flights, hotels, copying, filing fees, etc. The Arbitrator’s award leaves the winning Claimant at a
financial detriment of over a -$10,000. Claimant testified to turning down a state job offer that
included retirement benefits and a fully paid Doctorate Degree Program based on the reliance of
senior management promises and agreements to his ultimate detriment Claimant fulfilled his
part of the agreement However, the Defendant reneged and violated Claimant’s rights to fair
employment and to this veiy day, seven years later, that state position has never become
available again for the Claimant
CONCLUSION
Most disturbing is that the Arbitrator was afforded multiple opportunities to correct her
misconduct and biased actions before her decision and final ruling were put on record.
Claimant’s RFR stated to Arbitrator Renovitch, after he pointed out the obvious errors, that he
could

how her misunderstanding about the false dates used in evidence and her

mixing up of the documents could have led her to inadvertently aiding AIG in avoiding punitive
damages. Arbitrator Renovitch responded to the opportunities to correct her mistakes in her Final
Award by stating that she declined to modify the Interim Award because the issue raised in
Claimant’s request was folly considered and properly resolved in the Interim Award (Exhibit 19,
Final Award). That statement alone admits that she folly recognized that there was no
“misunderstanding” about her errors and there was no “inadvertently” aiding of AIG, it can only
be intentional in an attempt to avoid awarding punitive damages. The record establishes that
22

Case 4:17-cv-00117-LGW-CLR Document 22 Filed 02/20/19 Page 23 of 25

Arbitrator Renovitch refused to hear evidence pertinent and material to the controversy. That
Arbitrator Renovitch failed to enforce judicial procedures and exceeded her powers by violating
neutrality and displayed partiality by implementing defense on behalf of the Defendant to the
detriment of the Claimant. That Arbitrator Renovitch showed partiality, misconduct and so
imperfectly executed her powers by ignoring multiple spoliation requests against the Defendant
which prejudiced the rights of the Claimant to procure evidence to his detriment AIG in its
closing arguments produced, in defiance to the Arbitrator’s agreement, an affirmative position
that Defendant had an exceedingly light burden with the ability to implement a single
nondiscriminatory reason for their action, while stating Claimant needed a “substantial burden
(Exhibit 18, p. 2-3). Arbitrator Renovitch violated her contractual agreement to rule by
preponderance of evidence and adopted AIG’s exceedingly light assertion to the detriment of the
Claimant
For a fair and neutral minded Judge, Arbitrator, Jury, or average citizen, the final
decisions by Arbitrator Renovitch concerning the second and third claim would have been
impossible to reach based on the concept of preponderance of evidence. Although lesser
those two claims would have warranted pecuniary awards and punitive damages also.
And most certainly that same pooling of a fair and neutral minded group would more than likely
not have ignored the need to apply punitive damages based on the bad faith and dishonesty
displayed on multiple levels, by a company of nearly a 500 Billion dollar net worth.
RFJJEF REQUESTED
Finally, the arbitrator acted in an arbitrary and capricious manner and thus committed a
gross mistake in her award. These actions impeded Claimants right to a fair and impartial

23

Case 4:17-cv-00117-LGW-CLR Document 22 Filed 02/20/19 Page 24 of 25

hearing. Based on the foregoing, Claimant requests that this Court vacate the Arbitrator’s award
in partial concerning the relusal to award punitive damages and award the Claimant puniti\e
damages for the successfully won Section 1981 and litlc VII race discrimination claim awaiding
the max allowed for Title Vll capped at $300,000 and an amount in excess of that for the
uncapped Section 1981 Race discrimination claim. Or in the alternative vacate in partial and
allow the Claimant to appear before a new Arbitrator to determine if punitive damages are
warranted. Or in the alternative to vacate in whole and allow the Court to determine the hi each
under basic contract law concerning the valid employment contract and il so, allow this case to
return to the federal court to be heard under the case that Claimant is currently asking the Court
to re- instate to the trial docket of this court. Or in the alternative to vacate in whole and allow
the case to go before a new Arbitrator as Claimant has been so biased by the original Arbitrator
that only a new one would be warranted in any future proceedings in partial or whole.
Respectfully submitted this 20th day of February. 2019

William A. Anderson
Claimant, Pro Sc

Claimant's Address:

19 Finn Court
Savannah, GA 31419

24

I

APPENDIX

IN ARBITRATION

)

WILLIAM ANDERSON
Claimant

)
)

v.

Arbitration Case 01-17-0003-8997

)

AMERICAN GENERAL LIFE INSURANCE

)

DBA AIG LIFE AND RETIREMENT

)
)

Defendant

)

CLAIMANT’S FORMAL REQUEST FOR RECONSIDERATION
COMES NOW, William Anderson, Claimant in the above referenced arbitration who asks that
the Arbitrator Renovitch (“Arbitrator”) reconsider her interim decision as to punitive damages as
to his successful Section 1981 and Title VII racial discrimination claims with respect to the
Service manager promotion as follows:
Claimant argued in his proposed order and other inclusions:
“Hardwick testimony indicated that Gallo, Watson, and Benson worked together on at
least one occasion to push business through to benefit Watson during the contest. When agents
write business, it is sent for approval to the home office where underwriting reviews and
approves the business and it becomes issued and reflected as net sales or denied. Only a general
manager like Gallo could call or cause the administrative staff to contact underwriting and find
out information about why or when business pending would be approved. [Tr. p. 320:10-19].

APPENDIX F

However, only a

Regional level manager like Benton can get underwriting to push the business

through quicker. [Tr. p. 320:20-25, p. 321.1-2].
ked Hardwick to fax a request to push through business for Watson during the
Gallo as
[Tr. p. 323:1-11]. Hardwick testified: “Now, I do recall an occasion. ..he [Watson] had
contest.
needed to be issued, pushed through in older for him to meet his goal. So,
this big policy that he
Mr. Gallo had me

to fax it to the home office. That way it will go to underwriting quicker

because we had a special number-fax number that we could send business through to
underwriting.

And when they got it, 1 know that he [Gallo] called Mr. Benton, and when it gets

to underwriting,

to call him and see if he [Benton] can get it pushed through, see what was the

holdup so [sic] that he could go ahead and push the business through.” [Tr p. 331:17-25, p.332:l8].

Wonda Gibson's testimony of hearing the Regional manager saying how he'd be up there

and “he’s” going to hit the button to get it [new business] pushed through [tr. p. 361:1-3] . Dale
Morris’ trail testimony of a former RVP named Ron Callahan, who would often manipulate
business by pushing it through or delaying its issue. [Tr. p 387:11-14, p 388.1-4]
Gallo testified in his deposition that Benton had contacted him, after he [Benton] had
been contacted by AIG prior to his [Gallo] deposition about the lawsuit, Gallo dep. p. 40. Also,
the Claimant submits again the evidence elicited during Gallo’s deposition at Ex. 1 where Gallo
communicated to Curtis Benton that he knew that Roy Watson would get his NFYP up “with
what we have in underwriting being issued.” Gallo testified that he sent it to Benton. Gallo dep.
pp. 71-72. Gallo was untruthful about being able to determine when new business was going to
be issued. Gallo dep. pp. 64-66. And, Gallo denied pushing through business, Gallo dep. pp.
105. Which we can consider true as only the RVP, Mr. Benton could have pushed the business
through based on evidence and testimonies.

bmits that the arbitrator overlooked Claimant’s
Further, Claimant respectfully su
testimony that he tried to avail himself of the “open door policy” and contacted Curtis Benton,
who refused to see him. Anderson Tr. p. 172
O So once you were told you were not going
to be appointed to the position of Roy Watson, what
did you do?
A. At that time I sent an e-mail demanding to
use an open door policy and speak with Curtis Benton.
Q. Were you able to meet with him?
A. No, I was not.
Q. And then what did you do?
A I tried to speak to Scott German. I
was trying to go up the chain of command to speak to
someone about what had been done to me that I thought
was unfavorable and not right. And I was rejected m
every attempt to utilize that Even with a Stay in Federal Court that is current to date, the previous arbitrator, Baker,
it evidence as to whether AIG breached the arbitration agreement by refusing to
refused to permi
hear evidence on whether Claimant was denied his ability to utilize the “open door policy.”
Respectfully, the Arbitrator in the instant case, decided not to revisit that determination.
Further, Claimant respectfully addresses that Rick Pickett was erroneously identified as
having collected the service agent position #24 in May 2012 when Roy Watson was given the
trial manager position. There is absolutely no mention of Rick Pickett servicing Agency #24
during the month of May 2012 in any deposition or trial testimony from either side. However, it
appears that the Arbitrator based her interim decision primarily on this concept not present
during the trial or via depositions. The actual pay statements provided by AIG clearly identify
that Rick Pickett did not work or receive payment on that position until after 13 August 2012, a
Ml week after claimant was identified as folly qualified to assume the position permanently. In

concerning the vacation of claimant, Gallo used the term,“I
Mr. Gallo’s deposition answers
» even at one time saying “No, Okay” to claimant okaying Rick
think; I’m assuming; I believe,
Pickett collecting on agency #24. [Gallo depo. p. 110:22-24; p. 111 :l-24, p. 112.1 8].
: he testified that he mentioned his desire to go on vacation to Mr.
Claimant’s testimony was clear:
Gallo well after the discriminatory move had already been made.[Tr. p. 162:12-25] It is
that the misunderstanding about the white male collecting the position in May of
2012, when Roy became a trial manager, can give the appearance that he was rewarded the
position temporarily for working hani on it prior to August 2012, however, physical evidence
and testimony from both sides clearly prove that was not the case.
It should also be noted that collectable business being a reason for the return delay was
not mentioned by AIG during its deposition interviews with its witnesses Thomas Gallo and Roy
Watson, with Claimant, or in its request for dispositive motion on summary judgment. Evidence
and testimony indicate that claimant only transferred a portion that was his personal busmess
from

Agency #79 to Agency #24 and not his entire book of business. Claimant's book of

busmess was over $230,000 of non-collectible business and contained only a minuscule amount
of ($1200) collectable busmess that was non-personal . Diane Hardwick testified that claimant
had collectible business on his agency and that was correct; however, when pressed by AIG, she
clearly stated several times that she could not verify that claimant had transferred the small

amount of collectible, but only wanted his personal business retumed.[Tr. p. 335:1-5, p. 336:1724]. Claimant testified that only his personal business, which was all non-collectible, was
requested to be transferred back to him and documented Policy Registers verified such [Tr. p.
434T 8-25, p. 435:1-10]. Physical evidence also proves that the return was not conducted until
after a retaliation claim was filed to EEOC and Thomas Gallo lied under oath about knowing of

Although asked, AIG failed to provide any type of written
the EEOC filing during that time.
concerning collectable business, but wants to rely only upon Deborah
policy or correspondence
issions and whose job description on the record does
Carter, who works in licensing and commissi
not cover policy registers. In Ms. Carter’s brief testimony
registers only.

, she claimed familiarity with policy

Counsel for the defendant asked her 3 quick questions: (1) had she reviewed

claimant’s policy register, (2) did the transfer have collectible on it, (3) would the transfer back
therefore have collectible on it? (not did it have collectible on it) Ms. Carter answered yes to all
three questions; however
minute

, AIG moved on in questioning and did nothing to corroborate its last

, added on defense [Tr p. 480:1-10]. However, Ms. Daphne Luckett only called it a

strategy and was careful to say
[Tr. p. 505:13-15].

“if’ collectible business was included it could cause a long delay.

Claimant humbly suggests that Deborah Carter’s statement alone did not

provide a non-discriminatory reason for AIG’s retaliatory behavior.
AIG first refused to produce, then answered they no longer maintained a document
paramount to this case

. The interim award brief seems to confuse the New Business Pending

Reports with the Agent Compensation Reports (R600s) . Claimant testified to the extreme
significance of that New Business document during the trial and requested spoliation; however,
the Arbitrator gave no attention to it. [Tr.p. 117:19-25, p. 118:1-22], This is extremely
important in that the R6Q0’s showed the final NFYP (i.e. 350 NFYP & 93% RPR), but the New
Business Pending Reports that AIG failed to preserve would have shown details per policy
submitted to the home office and the remarks section reflects exactly who, what, when, and how
the NFYP number manipulations would have occurred towards the controlling of the NFYP.
Claiman

t again requests granting consideration of its Spoliation request due to AIGs disposal of

New Business Pending Reports that would have proven whether or not upper management,

and Title Vii racial claims in an amount that would provide
successfully proven Section 19S1
, make whole, and adequately deter a company the size of AIG from future behavior of
justice
this kind.

6

This / @ ' day of January, 2019.

William A. Anderson
19 Finn Court
Savannah, GA 31419
CLAIMANT

